1a
APPENDIX A
NOTE: This disposition is nonprecendential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

2020-1723, 2020-1901
AMARIN PHARMA, INC., AMARIN
PHARMACEUTICALS IRELAND LIMITED,
Plaintiffs-Appellants,
v.
HIKMA PHARMACEUTICALS USA INC., HIKMA
PHARMACEUTICALS INTERNATIONAL LIMITED,
DR. REDDY’S LABORATORIES, INC., DR. REDDY’S
LABORATORIES, LTD.,
Defendants-Appellees.
Appeals from the United States District Court for the
District of Nevada in No. 2:16-cv-02525-MMD-NJK,
Judge Miranda M. Du.
JUDGMENT
*

*

*

THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (DYK, REYNA, and HUGHES, Circuit
Judges).

2a
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
September 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
No. 2:16-cv-02525-MMD-NJK
AMARIN PHARMA, INC., et al.,
Plaintiffs,
v.
HIKMA PHARMACEUTICALS USA INC., et al.,
Defendants.
Filed March 30, 2020
BENCH ORDER
I.

SUMMARY

This is a consolidated patent infringement case
brought under the HatchWaxman Act where Plaintiffs Amarin Pharma, Inc. and Amarin Pharmaceuticals
Ireland Limited (collectively, “Amarin”) seek to prevent Defendants West-Ward Pharmaceuticals International Limited and Hikma Pharmaceuticals USA Inc.
(collectively, “Hikma”), and Dr. Reddy’s Laboratories,
Inc. and Dr. Reddy’s Laboratories, Ltd. (collectively,
“DRL”) from launching generic competitor drugs to
Plaintiffs’ drug Vascepa®. This order follows a bench
trial the Court held in January 2020 (the “Trial”). As
further explained below in the Court’s findings of fact
and conclusions of law, the Court finds that Defendants

4a
infringe the asserted claims under Plaintiffs’ inducement theory, but the asserted patent claims are all invalid as obvious.
II. CLAIMS
Plaintiffs sued Defendants under the patent laws of
the United States, 35 U.S.C. § 100, et seq., including 35
U.S.C. § 271(e)(2), and the Declaratory Judgment Act,
28 U.S.C. §§ 2201 and 2202, arising from Defendants’
filing of Abbreviated New Drug Applications (“ANDAs”) under Section 505(j) of the Federal Food, Drug,
and Cosmetic Act (“FDCA”), 21 U.S.C. § 355(j), seeking
approval from the United States Food and Drug Administration (“FDA”) to market generic versions of
Plaintiffs’ Vascepa product. (ECF No. 324 at 2.)
Plaintiffs specifically assert infringement of U.S.
Patent No. 8,293,728 (“the ’728 patent”), U.S. Patent
No. 8,318,715 (“the ’715 patent”), U.S. Patent No.
8,357,677 (“the ’677 patent”), U.S. Patent No. 8,367,652
(“the ’652 patent”), U.S. Patent No. 8,431,560 (“the ’560
patent”), and U.S. Patent No. 8,518,929 (“the ’929 patent”).1 (ECF No. 331 at 9.) Each of the Asserted Patents is entitled “METHODS OF TREATING HYPERTRIGLYCERIDEMIA.” (Id.) The U.S. applications that ultimately issued as the Asserted Patents are
continuations of U.S. Application No. 12/702,889, filed
on February 9, 2010, which ultimately issued as the
U.S. Patent No. 8,293,727 (“the ’727 patent”). (Id.) The
Asserted Patents further claim priority to U.S. Provisional Application No. 61/151,291, filed on February 10,
2009, and U.S. Provisional Application No. 61/173,755,
filed on April 29, 2009. (Id.)

1

Collectively, the “Asserted Patents.”

5a
Plaintiffs more specifically assert that Defendants
infringe the following ten claims of the Asserted Patents: Claims 1 and 16 of the ’728 patent, Claim 14 of
the ’715 patent, Claims 1 and 8 of the ’677 patent, Claim
1 of the ’652 patent, Claims 4 and 17 of the ’560 patent,
and Claims 1 and 5 of the ’929 patent.2 (ECF Nos. 331
at 9-10, 333 at 13 n.1.) Defendants asserted counterclaims of noninfringement and invalidity. (ECF Nos. 27
at 28-34, 33 at 33-56.)
III. FINDINGS OF FACT
The Court makes the following findings of fact
based on the testimony and other evidence admitted
during the course of the Trial, along with the pre-trial
and post-trial briefing the parties filed in this case.
///
///
A. Factual Background
The Asserted Patents are directed to methods of
beneficially lowering the levels of certain fats in the
bloodstream using drugs made of purified omega-3 fatty acids from fish oil. Fats are natural biological molecules that scientists call “lipids.” Triglycerides (“TGs”)
and cholesterol are two types of lipids that are of major
importance in human physiology. TGs are high in calories and are a major source of energy in the diet of humans. (ECF No. 370 at 1561:21-1562:21.) After they
are absorbed from the intestine, triglycerides are broken down into their component molecules, resynthesized, and reassembled by the intestine into lipoproteins. Lipoproteins are spherical particles that travel
2

Collectively, the “Asserted Claims.”

6a
through the bloodstream and contain lipids (such as triglycerides and cholesterol) as well as proteins. (ECF
Nos. 366 at 324:5-9, 370 at 1562:12-17.) The major proteins that are in lipoproteins are called apolipoproteins.
One type of apolipoprotein is Apo B.
Cholesterol levels measured in a clinical laboratory
generally include levels of both free cholesterol and
cholesteryl ester. (ECF No. 333 at 8.) The level of cholesterol measured in the blood is generally an indicator
for the amount of low-density lipoprotein cholesterol
(“LDL-C”) in the blood. (Id.) LDL-C is the “bad” cholesterol that physicians try to reduce in their patients
with drugs such as statins. (Id.) In many patients,
there is a strong linear relationship between levels of
LDL-C and Apo B. (Id.) In other words, changes in
LDL-C levels occur in parallel with changes in Apo B,
reflecting the fact that there is one molecule of Apo B
per LDL particle. (Id.)
The Asserted Claims are directed to methods of
treating severe hypertriglyceridemia, a condition in
which a patient’s fasting TG levels rise to very high
levels of 500 mg/dL or above. (ECF No. 377 at 33.)
The term “hypertriglyceridemia” (“HTG”) refers to
having elevated TGs, which are the most abundant type
of fat in the blood. (ECF No. 373 at 27.) The clinical
guidelines that both sides rely on in this case, called
“ATP III,” define “normal triglycerides” as less than
150 mg/dL, with levels above that considered elevated
to various degrees. (Ex. 15263 (National Institutes of
3

The designation “Ex.” refers to exhibits published by the
parties during Trial and admitted by the Court. They are not filed
on the docket but are available for public review in the Clerk of
Court’s office at 400 S. Virginia St. in Reno, Nevada, upon request,
by referencing the case number of this case.

7a
Health, National Heart, Lung, and Blood Institute,
“Detection, Evaluation, and Treatment of High Blood
Cholesterol in Adults (Adult Treatment Panel III),
Executive Summary,” May 2001 (“ATP-III Executive
Summary”)) at 27.) These numbers are referring to the
“concentrations of triglycerides in the blood, and [] are
always taken in the fasting state.” (ECF No. 366 at
329:4-17.)
Severe hypertriglyceridemia “has a well-known
meaning to doctors who treat the condition.” (Id. at
454:6-8.) It “means that a patient has had triglycerides
levels greater than or equal to 500 milligrams per deciliter.” (ECF No. 365 at 52:24-3; see also ECF No. 366
at 454:9-12.) In other words, “as long as the patients
have [TG] levels above 500, regardless of why, they
have severe hypertriglyceridemia.” (ECF No. 366 at
455:8-11.) This definition is consistent with the ATPIII guidelines as well as the Vascepa indication. (Ex.
1526 at 27; Ex. 2248 at 1.)
For most patients with elevated TGs, “the primary
aim of therapy is to achieve the target goal for LDL[-C
levels].” (Ex. 1526 at 27.) This is because research has
long shown that “elevated LDL cholesterol is a major
cause of CHD”—i.e., coronary heart disease. (Id. at 11.)
The primary aim of therapy is different in patients
with severe HTG because they have an elevated risk of
acute pancreatitis. Pancreatitis, which involves the inflammation of the pancreas, is an excruciatingly painful
and potentially life-threatening condition. (ECF No.
370 at 1567:2-22 (“In the setting of severe hypertriglyceridemia, inflammatory changes [c]an occur within the
pancreas that can lead to sudden devastating injury to
the pancreas leading to dissolution of pancreatic tissue,
resulting in severe pain, inability to eat, to drink, and it

8a
constitutes a medical emergency. But even more importantly[,] in some cases[,] it [can] even result in
death.”); see also ECF Nos. 366 at 331:3-20, 365 at 72:413.) In patients with severe hypertriglyceridemia, the
primary “aim of therapy is to prevent acute pancreatitis through triglyceride lowering.” (ECF No. 366 at
457:11-15; see also Ex. 1526 at 19.) This is the “primary
treatment aim [in patients with severe hypertriglyceridemia] regardless of why the patient has triglycerides
above 500.” (ECF No. 366 at 457:16-18.) This is because “pancreatitis can be a life-threatening condition.”
(Id. at 473:18-20; see also id. at 568:10-16.)
As noted, the Asserted Claims are directed to
methods of treating severe HTG specifically by administering 4 grams (“4 g”) per day of purified EPA.
Treating patients with severe hypertriglyceridemia
with purified EPA reduced TGs in those patients without increasing LDL-C, the bad-cholesterol. (ECF Nos.
367 at 851:15-852:1, 370 at 1574:3-1575:1, 1598:14-17.)
Other treatments for severe hypertriglyceridemia
dramatically increase LDL-C levels, which then often
requires the administration of a separate concurrent
cholesterol-lowering drug, such as a statin, just to address that LDL-C increase. (ECF Nos. 367 at 813:8814:2, 370 at 1598:18-1599:18.) Additionally, purified
EPA has now been shown to actually reduce cardiovascular risk in severely hypertriglyceridemic patients on
top of a statin, the only TG-lowering treatment shown
to confer such a benefit. (ECF Nos. 367 at 849:21-24,
368 at 1122:6-13, 370 at 1622:5-16, 1625:2-21.) Treating
severe HTG with purified EPA therefore offers several
benefits over other possible treatments.

9a
B. Plaintiff’s Drug
Vascepa is a highly purified preparation of EPA
(eicosapentaenoic acid), also known as icosapent ethyl.
(ECF No. 324 at 24.) FDA first approved Vascepa in
July 2012 as “an adjunct to diet to reduce triglyceride
(“TG”) levels in adult patients with severe (≥500
mg/dL) hypertriglyceridemia.” (Id.) Amarin currently
markets Vascepa in both 1 g and 500 mg capsules. (Ex.
1186 at 2.) The daily dose of Vascepa is 4 grams per
day, taken as two 1-gram (or four 500 mg) capsules
twice daily with food. (ECF No. 324 at 24.)
Vascepa embodies the Asserted Claims. Vascepa
contains a “pharmaceutical composition,” as required
by Claims 1 and 16 of the ’728 patent, Claim 14 of the
’715 patent, Claims 1 and 8 of the ’677 patent, Claim 1 of
the ’652 patent, and Claims 1 and 5 of the ’929 patent.
The “pharmaceutical composition” in Vascepa comprises “at least about 96%, by weight of all fatty acids present, ethyl eicosapentaenoate[,] and substantially no
docosahexaenoic acid or its esters,” as required by
Claims 1 and 16 of the ’728 patent, Claims 1 and 8 of the
’677 patent, and Claims 1 and 8 of the ’652 patent.
Vascepa further contains a “pharmaceutical composition” “wherein no fatty acid of the pharmaceutical composition, except for ethyl-EPA, comprises more than
about 0.6% by weight of all fatty acids combined,” as
required by Claim 16 of the ’728 patent. (Id. at 25.)
The “pharmaceutical composition” in Vascepa also
comprises “at least about 96% by weight, ethyl eicosapentaenoate (ethyl-EPA) and substantially no docosahexaenoic acid ([“]DHA[”]) or its esters,” as required by Claim 14 of the ’715 patent. (Id.) Vascepa
comprises a “capsule comprising about 900 mg to about
1 g of ethyl eicosapentaenoate and not more than about
3% docosahexaenoic acid or its esters, by weight of to-

10a
tal fatty acids present,” as required by Claims 4 and 17
of the ’560 patent. (Id.) Finally, the “pharmaceutical
composition” in a daily dose of Vascepa comprises
“about 4 g of ethyl eicosapentaenoate and not more
than about 4% docosahexaenoic acid or its esters, by
weight of all fatty acids,” as required by Claims 1 and 5
of the ’929 patent. (Id.)
C. Defendants’ ANDA Applications and Products
In 2016, after Vascepa’s initial period of exclusivity
against generic competition expired, Defendants filed
ANDAs seeking FDA approval to market generic versions of Vascepa. As required by law, Defendants’
ANDAs adopted the “same” labelling as Vascepa,
which at the time was only approved for severe hypertriglyceridemia.
See 21 U.S.C. §§ 355(j)(2)(A)(v),
(j)(4)(G). However, Plaintiffs have since won FDA approval of a second indication for Vascepa—reducing the
risk of adverse cardiovascular events. Now that
Vascepa has two indications, the law “permits [Defendants] to file ANDAs directed to a subset of FDAapproved indications and even provides a mechanism
for [Defendants] to affirmatively carve out” the new
indication from their labels. AstraZeneca Pharm. LP
v. Apotex Corp., 669 F.3d 1370, 1381 (Fed. Cir. 2012).
Thus, Defendants’ current labels do not include Vascepa’s new indication, and are materially the same as the
labels the Court previously considered in ruling on the
parties’ summary judgment motions.
1. Hikma’s ANDA
On or about July 26, 2016, Hikma Pharmaceuticals
PLC and Roxane Laboratories, Inc., through Roxane
Laboratories, Inc. (incorporated in Nevada), submitted
to FDA an ANDA (ANDA No. 209457) with paragraph

11a
IV certifications under Section 505(j)(2)(A)(vii)(IV) of
the FDCA, 21 U.S.C. § 355(j)(2)(A)(vii)(IV), seeking
approval to market a generic version of Vascepa®
(icosapent ethyl) 1 g capsules as Icosapent Ethyl Capsules, 1 gram (“Hikma’s ANDA Product”). (ECF No.
24 at 22.)
Pursuant to 21 U.S.C. § 355(j)(2)(B), in a letter dated
September 21, 2016, Hikma Pharmaceuticals PLC and
Roxane Laboratories, Inc. notified Amarin that they had
submitted to FDA ANDA No. 209457, with paragraph
IV certifications for the Asserted Patents. (Id.)
On or about December 8, 2016, Roxane Laboratories, Inc. transferred ANDA No. 209457 to West-Ward
Pharmaceuticals International Limited. (Id.)
On or about December 8, 2016, West-Ward Pharmaceuticals International Limited appointed WestWard Pharmaceuticals Corp. as its agent for purposes
of communication with FDA regarding ANDA No.
209457. (Id. at 23.)
West-Ward Pharmaceuticals International Limited
has changed its name to Hikma Pharmaceuticals International Limited. (Id.)
On or about July 8, 2019, Hikma Pharmaceuticals
International Limited transferred ANDA No. 209457 to
Hikma Pharmaceuticals USA Inc. Hikma Pharmaceuticals USA Inc. is now the owner of ANDA No. 209457.
(Id.)
Vascepa is the Reference Listed Drug (“RLD”) for
ANDA No. 209457. (ECF No. 324 at 25.) Hikma’s
ANDA Product, if approved, will be bioequivalent to
Vascepa. (Id.) The indication set forth in the proposed
labeling for Hikma’s ANDA Product, submitted in connection with ANDA No. 209457, is “as an adjunct to di-

12a
et to reduce triglyceride (TG) levels in adult patients
with severe (≥500 mg/dL) hypertriglyceridemia.” (Id.
at 26.) The dosage form of Hikma’s ANDA Product, if
approved, will be a 1 - gram soft-gelatin capsule. (Id.)
The daily dose of Hikma’s ANDA Product, if approved,
will be 4 grams per day taken as two 1-gram capsules
twice daily with food. (Id.) Hikma’s ANDA Product, if
approved, will contain icosapent ethyl. (Id.)
Hikma’s ANDA Product, if approved, will contain a
“pharmaceutical composition,” as required by Claims 1
and 16 of the ’728 patent, Claim 14 of the ’715 patent,
Claims 1 and 8 of the ’677 patent, Claim 1 of the ’652 patent, and Claims 1 and 5 of the ’929 patent. (Id.) The
“pharmaceutical composition” in Hikma’s ANDA Product, if approved, will comprise “at least about 96%, by
weight of all fatty acids present, ethyl eicosapentaenoate[,] and substantially no docosahexaenoic acid or its
esters,” as required by Claims 1 and 16 of the ’728 patent, Claims 1 and 8 of the ’677 patent, and Claim 1 of
the ’652 patent. (Id.) Hikma’s ANDA Product, if approved, will contain a “pharmaceutical composition”
“wherein no fatty acid of the pharmaceutical composition, except for ethyl-EPA, comprises more than about
0.6% by weight of all fatty acids combined,” as required
by Claim 16 of the ’728 patent. (Id.) Hikma’s ANDA
Product, if approved, will comprise a “capsule comprising about 900 mg to about 1 g of ethyl eicosapentaenoate and not more than about 3% docosahexaenoic acid
or its esters, by weight of total fatty acids present,” as
required by Claims 4 and 17 of the ’560 patent. (Id. at
26-27.) The “pharmaceutical composition” in a daily
dose of Hikma’s ANDA Product, if approved, will comprise “about 4 g of ethyl eicosapentaenoate and not
more than about 4% docosahexaenoic acid or its esters,

13a
by weight of all fatty acids,” as required by Claims 1
and 5 of the ’929 patent. (Id. at 27.)
2. DRL’s ANDA
On or about July 26, 2016, DRL, through Dr. Reddy’s Laboratories, Inc., submitted to FDA an ANDA
(ANDA No. 209499) with paragraph IV certifications
under Section 505(j)(2)(A)(vii)(IV) of the FDCA, 21
U.S.C. § 355(j)(2)(A)(vii)(IV), seeking approval to market a generic version of Vascepa (icosapent ethyl) 1 g
capsules as Icosapent Ethyl Capsules, 1 gram (“DRL’s
ANDA Product”). (Id. at 23)
Pursuant to 21 U.S.C. § 355(j)(2)(B), in a letter dated September 22, 2016, DRL notified Amarin that it
had submitted to FDA ANDA No. 209499, with paragraph IV certifications for the Asserted Patents. (Id.
at 24.)
On or about July 11, 2018, DRL, through Dr. Reddy’s Laboratories, Inc., submitted to FDA a supplement to ANDA No. 209499 with paragraph IV certifications under Section 505(j)(2)(A)(vii)(IV) of the
FDCA, 21 U.S.C. § 355(j)(2)(A)(vii)(IV), for 500 mg
icosapent ethyl capsules purportedly bioequivalent to
Vascepa. (Id.)
Pursuant to 21 U.S.C. § 355(j)(2)(B), in a letter dated July 11, 2018, DRL notified Amarin that it had submitted to FDA a supplement to ANDA No. 20499, with
paragraph IV certifications for the ’728, ’715, ’677, ’652,
and ’929 patents. (Id. at 24.)
Vascepa is the RLD for ANDA No. 209499. DRL’s
ANDA Product, if approved, will be bioequivalent to
Vascepa. (Id. at 27.) The indication set forth in the
proposed labeling for DRL’s ANDA Product, submitted in connection with ANDA No. 209499, is “as an ad-

14a
junct to diet to reduce triglyceride (TG) levels in adult
patients with severe (≥ 500 mg/dL) hypertriglyceridemia.” (Id.) The dosage form of DRL’s ANDA Product, if approved, will be a 1-gram soft-gelatin capsule.
(Id.) The daily dose of DRL’s ANDA Product, if approved, will be 4 grams per day taken as two 1-gram
capsules twice daily with food. DRL’s ANDA Product,
if approved, will contain icosapent ethyl. (Id.)
DRL’s ANDA Product, if approved, will contain a
“pharmaceutical composition,” as required by Claims 1
and 16 of the ’728 patent, Claim 14 of the ’715 patent,
Claims 1 and 8 of the ’677 patent, Claim 1 of the ’652 patent, and Claims 1 and 5 of the ’929 patent. (Id.) The
“pharmaceutical composition” in DRL’s ANDA Product, if approved, will comprise “at least about 96%, by
weight of all fatty acids present, ethyl eicosapentaenoate[,] and substantially no docosahexaenoic acid or its
esters,” as required by Claims 1 and 16 of the ’728 patent, Claims 1 and 8 of the ’677 patent, and Claim 1 of
the ’652 patent. (Id.)
DRL’s ANDA Product, if approved, will contain a
“pharmaceutical composition” “wherein no fatty acid of
the pharmaceutical composition, except for ethyl-EPA,
comprises more than about 0.6% by weight of all fatty
acids combined,” as required by Claim 16 of the ’728 patent. (Id. at 27-28.) The “pharmaceutical composition”
in DRL’s ANDA Product, if approved, will comprise
“at least about 96% by weight, ethyl eicosapentaenoate
(ethyl-EPA) and substantially no docosahexaenoic acid
(DHA) or its esters,” as required by Claim 14 of the
’715 patent. (Id. at 28.) DRL’s ANDA Product, if approved, will comprise a capsule comprising 950 mg to
1050 mg of ethyl eicosapentaenoate. DRL did not assert the claim limitation from Claims 4 and 17 of the
’560 patent that recites a “capsule comprising about 900

15a
mg to about 1 g of ethyl eicosapentaenoate” as a basis
for noninfringement of Claims 4 and 17 of the ’560 patent. (Id.) DRL’s ANDA Product, if approved, will
comprise “a capsule comprising … not more than about
3% docosahexaenoic acid or its esters, by weight of total fatty acids present,” as required by Claims 4 and 17
of the ’560 patent. (Id.) The “pharmaceutical composition” in a daily dose of DRL’s ANDA Product, if approved, will comprise “about 4 g of ethyl eicosapentaenoate and not more than about 4% docosahexaenoic
acid or its esters, by weight of all fatty acids,” as required by Claims 1 and 5 of the ’929 patent. (Id.)
D. The Asserted Patents
1. The ’728 Patent
The ’728 patent issued on October 23, 2012 to Mehar Manku, Ian Osterloh, Pierre Wicker, Rene
Braeekman, and Paresh Soni (collectively, “Inventors”).
The patent issued from Application No.
13/349,153 (“the ’153 application”). (ECF No. 324 at 4.)
Claims 1 and 16 of the ’728 patent are asserted.
The asserted claims of the ’728 patent, and any claims
from which they depend, are reproduced below.
1. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500
mg/dl to about 1500 mg/dl who does not receive
concurrent lipid altering therapy comprising: administering orally to the subject about 4 g per day
of a pharmaceutical composition comprising at least
about 96% by weight of all fatty acids present,
ethyl eicosapentaenoate, and substantially no docosahexaenoic acid or its esters for a period of 12
weeks to effect a reduction in triglycerides without
substantially increasing LDL-C compared to a sec-

16a
ond subject having a fasting baseline triglyceride
level of 500 mg/dl to about 1500 mg/dl who has not
received the pharmaceutical composition and a concurrent lipid altering therapy.
16. The method of claim 1, wherein no fatty acid of
the pharmaceutical composition, except for ethylEPA, comprises more than about 0.6% by weight of
all fatty acids combined.
2. The ’715 Patent
The ’715 patent issued on November 27, 2012 to the
Inventors. The patent issued from Application No.
13/282,145 (“the ’145 application”). (ECF No. 324 at 4.)
Claim 14 of the ’715 patent is asserted. The asserted
claims of the ’715 patent, and any claims from which
they depend, are reproduced below.
13. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500
mg/dl to about 1500 mg/dl, who does not receive
concurrent lipid altering therapy, comprising administering orally to the subject about 4 g per day
of a pharmaceutical composition comprising at least
about 96% by weight, ethyl eicosapentaenoate
(ethyl-EPA) and substantially no docosahexaenoic
acid (DHA) or its esters for a period of at least 12
weeks to effect a statistically significant reduction
in triglycerides without effecting a statistically significant increase in LDLC or apolipoprotein B in
the subject.
14. The method of claim 13 comprising administering to the subject about 4 g per day of the pharmaceutical composition to effect a statistically significant reduction in triglycerides and apolipoprotein B

17a
without effecting a statistically significant increase
of LDL-C in the subject.
3. The ’677 Patent
The ’677 patent issued on January 22, 2013, to the
Inventors. The patent issued from Application No.
13/608,775 (“the ’775 application”). (ECF No. 324 at 4.)
Claims 1 and 8 of the ’677 patent are asserted. The asserted claims of the ’677 patent, and any claims from
which they depend, are reproduced below.
1. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500
mg/dl to about 1500 mg/dl comprising: administering orally to the subject about 4 g per day of a
pharmaceutical composition comprising at least
about 96% by weight of all fatty acids present,
ethyl eicosapentaenoate and substantially no docosahexaenoic acid or its esters for a period of at
least about 12 weeks to effect a reduction in triglycerides without substantially increasing LDL-C
compared to placebo control.
8. The method of claim 1, comprising administering to the subject about 4 g of the pharmaceutical
composition daily for the period of at least about 12
weeks to effect a reduction in apolipoprotein B
compared to placebo control.
4. The ’652 Patent
The ’652 patent issued on February 5, 2013 to the
Inventors. The patent issued from Application No.
13/610,247 (“the ’247 application”). (ECF No. 324 at 5.)
Claim 1 of the ’652 patent is asserted. The asserted
claim of the ’652 patent is reproduced below.

18a
1. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500
mg/dl to about 1500 mg/dl comprising: administering orally to the subject about 4 g per day of a
pharmaceutical composition comprising at least
about 96% by weight of all fatty acids present,
ethyl eicosapentaenoate and substantially no docosahexaenoic acid or its esters for a period of
about 12 weeks to effect a reduction in triglycerides
without substantially increasing LDL-C compared
to baseline.
5. The ’560 Patent
The ’560 patent issued on October 23, 2012 to the
Inventors. The patent issued from Application No.
13/711,329 (“the ’329 application”). (ECF No. 324 at 5.)
Claims 4 and 17 of the ’560 patent are asserted. The
asserted claims of the ’560 patent, and any claims from
which they depend, are reproduced below.
1. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500
mg/dl to about 1500 mg/dl comprising, administering orally to the subject 4 capsules per day, each
capsule comprising about 900 mg to about 1 g of
ethyl eicosapentaenoate and not more than about
3% docosahexaenoic acid or its esters, by weight of
total fatty acids present, for a period of 12 weeks to
effect a reduction in triglycerides in the subject.
4. The method of claim 1, wherein said administering effects a reduction in fasting triglycerides of
at least about 10% without increasing the LDL-C
by more than 5% in the subject.
11. A method of reducing triglycerides in a subject
having a fasting baseline triglyceride level of 500

19a
mg/dl to about 1500 mg/dl comprising, administering orally to the subject 4 capsules per day, each
capsule comprising about 900 mg to about 1 g of
ethyl eicosapentaenoate and not more than about
3% docosahexaenoic acid or its esters, by weight of
total fatty acids present, for a period of 12 weeks to
effect a reduction in triglycerides in the subject
compared to placebo control.
17. The method of claim 11, wherein said administering effects reduction in fasting triglycerides of
at least about 20% without increasing LDL-C in the
subject compared to placebo control.
6. The ’929 Patent
The ’929 patent issued on August 27, 2013 to the
Inventors. The patent issued from Application No.
13/776,242 (“the ’242 application”). (ECF No. 324 at 5.)
Claims 1 and 5 of the ’929 patent are asserted. The asserted claims of the ’929 patent, and any claims from
which they depend, are reproduced below.
1. A method of reducing triglycerides in a subject
having fasting triglycerides of at least 500 mg/dl
comprising, orally administering to the subject daily for at least about 12 weeks a pharmaceutical
composition comprising about 4 g ethyl eicosapentaenoate and not more than about 4% docosahexaenoic acid or its esters, by weight of all fatty acids.
5. The method of claim 1, wherein 12 weeks of
said daily administration is effective to reduce
apolipoprotein B in subjects who have fasting triglycerides levels of at least 500 mg/dl.
Pursuant to 21 U.S.C. § 355(b)(1), the Asserted Patents are listed in the Orange Book—published by FDA
and formally known as Approved Drug Products with

20a
Therapeutic Equivalence Evaluations—in connection
with New Drug Application (“NDA”) No. 202057.
(ECF No. 324 at 4.) Because the Asserted Patents are
related, their disclosures—the information contained
within their respective specifications—are essentially
the same. (ECF No. 377 at 65.) All of the Asserted Patents were initially rejected as obvious, but the patent
examiner responsible for reviewing them later issued
materially identical statements of allowance permitting
the Asserted Patents to issue because he found that
certain secondary considerations of nonobviousness
made the Asserted Claims patentable. (Id. at 61-65.)
He specifically found the pending claims patentable because “Applicant was able to overcome the above 103
obviousness rejection by showing: 1 - Unexpected results, and 2 - Long felt unmet medical need.” (See, e.g.,
Ex. 38 at 1831.)
E. Witnesses
Both Plaintiffs and Defendants had witnesses,
mostly experts, who testified at the Trial. The parties
also stipulated to the admission of the deposition testimony of other expert witnesses, and the Court admitted that testimony. The Court briefly describes the
witnesses below.
1. Live Testimony
The following witnesses testified on Plaintiffs’ behalf during the Trial. Matthew Budoff M.D. was admitted as an expert in the clinical treatment of patients
with lipid disorders, including severe hypertriglyceridemia, and as an expert in cardiology. (ECF No. 366

21a
at 323:11-14.)4 Dr. Budoff’s testimony focused on the
infringement portion of the case. Plaintiffs also had a
fact witness testify—Steven Ketchum, Ph.D. Dr.
Ketchum is the President of Research & Development,
a Senior Vice President, and the Chief Scientific Officer
at Amarin Pharma, Inc. (ECF No. 365 at 49:18-19.) Dr.
Ketchum’s testimony focused on the history of Amarin
and the development of Vascepa. Plaintiffs also offered
the expert testimony of Sean Nicholson, Ph.D. Dr. Nicholson was admitted as an expert in the economics of
the pharmaceutical industry. (ECF No. 369 at 1421:611.) He testified about the commercial success of
Vascepa and its nexus to the Asserted Claims. (Id. at
1417:13-1538:6.) Plaintiffs also offered Carl Peck M.D.
as an expert in FDA regulation of new and generic
drugs including prescription drug labeling. (Id. at
1323:16-23.) In addition, Peter Toth, M.D., Ph.D. was
admitted as an expert in lipidology, the treatment of
severe hypertriglyceridemia, including severe hypertriglyceridemia, and the prevention and treatment of
cardiovascular disease. (ECF No. 370 at 1560:11-17.)
Dr. Toth testified regarding the non-obviousness of the
Asserted Patents, and about the clinical attributes of
Vascepa. (Id. at 1546:9-1783:13.)
Defendants called expert witnesses Jonathan
Sheinberg (non-infringement), Jay Heinecke (invalidity), Edward Fisher (invalidity), and Ivan Hofmann (rebutting commercial success). (ECF No. 373 at 19.) Dr.
Sheinberg, a board-certified cardiologist, testified as
Defendants’ non-infringement expert. (Id. at 19-21.)
Dr. Heinecke, an endocrinologist and expert in lipopro4

References to the Trial transcripts (ECF Nos. 365-371) are
to the transcript page numbers, not the page numbers of that particular document in the CM/ECF system.

22a
tein metabolism and lipid disorders, testified as one of
Defendants’ invalidity experts. (Id.) Dr. Fisher, a biochemist and expert in cardiovascular medicine, also testified as one of Defendants’ invalidity experts. (Id.)
Mr. Hofmann, an economist, testified as Defendants’
commercial success expert. (Id.)
///
///
2. Deposition Testimony
As mentioned, the parties also stipulated to the
admission of the following deposition testimony.
Jerald Andry, Pharm.D. (Defendant Hikma’s Witness). Andry is the Senior Director of Drug Regulatory Affairs and Medical Affairs at Hikma Pharmaceuticals USA Inc. (Andry Dep. Tr. 8:15-23, 29:3-9.)5
Jaya Ayyagari (Defendant DRL’s Witness). Ayyagari is the Director of Regulatory Affairs at Dr. Reddy’s Laboratories, Inc. (Ayyagari Dep. Tr. 5:9-21,
27:25-28:5.)
Harold E. Bays, M.D. (Third-Party Witness). Dr.
Bays is the Medical Director and President of Louisville Metabolic and Atherosclerosis Research Center.
Dr. Bays submitted two declarations to the Patent and
Trademark Office during prosecution of the Asserted
Patents.

5

The designation “Dep. Tr.” refers to deposition transcripts
admitted as evidence by the Court on the parties’ stipulation in
lieu of reading them into the record at Trial. They are also available for public review in the Clerk of Court’s office at 400 S. Virginia St. in Reno, Nevada.

23a
Andrea Cady, Ph.D. (Defendant Hikma’s Witness).
Cady is the Senior Director of Product Development at
Hikma Pharmaceuticals USA Inc. (Cady Dep. Tr. 9:516.)
Philip Lavin, Ph.D. (ThirdParty Witness). Dr.
Lavin has a Ph.D. in Applied Mathematics from Brown
University. Dr. Lavin is self-employed through Lavin
Consulting LLC as a biostatistics consultant. Dr.
Lavin submitted two declarations to the Patent and
Trademark Office during prosecution of the Asserted
Patents.
Mehar Manku, Ph.D. (Third-Party Witness). Dr.
Manku is one of the named inventors of the Asserted
Patents. While he no longer works there, throughout
his career at Amarin, Dr. Manku played a central role
in the development of Vascepa. (Manku Dep. Tr. 8:229:17, 10:5-12:11, 14:19-16:6, 31:10-32:12, 48:19-50:11.)
Peter R. Mathers (Defendants’ Expert). Mathers
is a partner in the Washington, D.C. law firm of Kleinfeld, Kaplan and Becker LLP, where he practices food
and drug law. Mathers was retained by Defendants to
provide opinions regarding issues relating to patent infringement. (Mathers Dep. Tr. 11:13-24.)
Michael Miller, M.D. (Plaintiffs’ Claim Construction
Declarant). Dr. Miller is Professor of Cardiovascular
Medicine, Epidemiology and Public Health at the University of Maryland School of Medicine. Plaintiffs
asked Dr. Miller to offer his expert opinion during claim
construction regarding how a person of ordinary skill in
the art (“POSA”) would understand certain terms in
the Asserted Claims.
Ian Osterloh, M.D. (Third-Party Witness). Dr. Osterloh is one of the named inventors of the Asserted

24a
Patents. In 2007, Dr. Osterloh joined Amarin as a consultant on the severe hypertriglyceridemia clinical research and development program. (Osterloh Dep. Tr.
8:22-9:18, 22:24-23:24, 49:1-3.)
Anuj Srivastava, Ph.D. (Defendant DRL’s Witness). At the time of his deposition, Dr. Srivastava was
the Senior Director of Strategic Portfolio & Business
Development at Dr. Reddy’s Laboratories, Inc. (Srivastava Dep. Tr. 6:5-8, 17:15-18:15.)
Howard S. Weintraub, M.D. (Third-Party Witness).
Dr. Weintraub submitted two declarations to the Patent and Trademark Office during prosecution of the
Asserted Patents. (Weintraub Dep. Tr. 8:19-9:7, 10:216, 114:20-115:19, 185:9-11.)
F. Infringement
In general, prescription drug labels are referred to
alternatively as the label, labeling, prescribing information, and/or package insert. (ECF No. 369 at
1324:13-18.) As discussed below, the Court finds that
the Vascepa label supports Plaintiffs’ view that clinicians generally prescribe Vascepa for long-term use of
at least 12 weeks.
The Indications and Usage section of the Vascepa
label states that “Vascepa (icosapent ethyl) is indicated
as an adjunct to diet to reduce triglyceride (TG) levels
in adult patients with severe (≥ 500 mg/dL) hypertriglyceridemia.” (Ex. 1186 at 2.)6 The Indications and
6

The Indications and Usage section of Vascepa’s current labeling adds a second approved indication: “as an adjunct to maximally tolerated statin therapy to reduce the risk of myocardial infarction, stroke, coronary revascularization, and unstable angina
requiring hospitalization in adult patients with elevated triglyceride (TG) levels (≥ 150 mg/dL) and established cardiovascular dis-

25a
Usage section thus instructs clinicians that Vascepa is
approved (i.e., safe and effective) for use in combination
with diet to reduce TGs in adult patients with severe
hypertriglyceridemia—without concurrent administration of any other medication. (ECF No. 369 at 1352:1220, 1375:16-19.)
The Indications and Usage section of the Vascepa
label does not specify a duration of use. (Ex. 1186 at 2.)
The absence of a limitation on duration tells clinicians
that FDA has determined that there are no safety or
efficacy concerns that require limiting the duration of
use of Vascepa. (ECF No. 369 at 1373:1-11.) Given the
lack of any duration of use combined with the indication
to treat a chronic condition,7 the Indications and Usage
section instructs clinicians to prescribe VASCEPA
long-term. (Id. at 1338:8-1339:6, 1373:19-1374:1.)
Prior to December 2019, Vascepa’s labeling also included a “Limitation of Use” advising clinicians that
Vascepa’s effect on cardiovascular mortality and morbidity in patients with severe hypertriglyceridemia had
not been determined. (See Ex. 940 at 2.) That “Limitation of Use” was dropped when FDA approved Vascepa’s new indication for cardiovascular risk-reduction.8
(See Ex. 1186 at 2.)
The Dosage and Administration section of the
Vascepa label includes two subheadings. The first
ease or diabetes mellitus and 2 or more additional risk factors for
cardiovascular disease.” (Ex. 1186 at 2.) This indication, referred
to during the Trial as the “REDUCE-IT Indication” is carved out
of Defendants’ labels.
7

In many cases, as discussed in more detail infra in the
Court’s conclusions of law.
8

Again, the “REDUCE-IT Indication.”

26a
reads, “2.1 Prior to Initiation of Vascepa.” (Id.) Under
this heading, the label advises clinicians to “[a]ssess lipid levels before initiating therapy. Identify other
causes (e.g., diabetes mellitus, hypothyroidism, or medications) of high triglyceride levels and manage as appropriate.” (Id.) This subheading also advises clinicians that “[p]atients should engage in appropriate nutritional intake and physical activity before receiving
Vascepa, which should continue during treatment with
Vascepa.” (Id.)
The second sub-heading is “2.2 Dosage and Administration.” Here, the label states that “[t]he daily dose
of Vascepa is 4 grams per day taken as either: four 0.5
gram capsules twice daily with food; or as two 1 gram
capsules twice daily with food.” (Id.) The label also instructs clinicians to “[a]dvise patients to swallow
Vascepa capsules whole. Do not break open, crush, dissolve, or chew Vascepa.” (Id.; see also ECF No. 365 at
68:24-69:16.)
The Dosage and Administration section in Vascepa’s labeling does not specify a duration of use. (Ex.
1186 at 2.) The absence of a duration limitation in this
section conveys that Vascepa’s benefit does not stop
after a particular duration of treatment. (ECF No. 369
at 1343:5-9.) This means that Vascepa was approved
for long-term use to reduce TGs and maintain that reduction. (Id. at 1344:3-14.)
The Dosage and Administration section in Vascepa’s labeling does not recommend use of any concomitant medication. (Ex. 1186 at 2.) This conveys that
FDA approved Vascepa as a monotherapy to reduce
TGs in adult patients with severe hypertriglyceridemia
(ECF No. 369 at 1355:7-10), and that FDA does not believe that the safety or effectiveness of Vascepa de-

27a
pends on concurrent administration of another medication (Id. at 1354:20-25, 365 at 67:7-12).
The Dosage Forms and Strength section of the
VASCEPA label informs clinicians that Vascepa is
available as a 1-gram or 0.5-gram soft-gelatin capsule.
(Ex. 1186 at 2; see also ECF No. 365 at 67:13-68:6.)
The Contraindications section of the Vascepa label
states that Vascepa is contraindicated only in patients
with known hypersensitivity to Vascepa or any of its
components. (Ex. 1186 at 2.)
The Warnings and Precautions section of a drug label is intended to describe serious or otherwise clinically significant adverse reactions and safety hazards of
which clinicians need to be aware before prescribing
the drug. (ECF No. 366 at 358:10-15.) See also 21
C.F.R. § 201.57(c)(6). The Warnings and Precautions
section of the Vascepa label states that Vascepa was
associated with an increased risk of atrial fibrillation or
atrial flutter and an increased risk of bleeding. (Ex.
1186 at 2-3.) It also cautions against the use of Vascepa
in patients with known hypersensitivity to fish and/or
shellfish. (Id.)
Unlike Lovaza’s9 labeling, the Warnings and Precautions section of the Vascepa labeling does not warn
of a potential increase in LDL-C levels. (ECF No. 366
at 407:7-25; compare Ex. 566 at 1 with Ex. 1186 at 2-3.)
The Description section of the Vascepa label informs clinicians that the active ingredient in Vascepa is
“[i]cosapent ethyl,” which “is an ethyl ester of the omega-3 fatty acid eicosapentaenoic acid (EPA),” and that
9

A competing, older drug whose guide for use is prior art to
the Asserted Claims. Lovaza is described in more detail infra in
Section III.G.1(b).

28a
“[e]ach VASCEPA capsule contains … 1 gram of icosapent ethyl (in a 1 gram capsule).” (Ex. 1186 at 6; see
also ECF No. 365 at 68:7-23.) This section also states
that Vascepa is for “oral use.” (Ex. 1186 at 6; see also
ECF No. 366 at 418:2-5.)
The Nonclinical Toxicology section of a prescription
drug label discloses the results of studies conducted on
rodents, or other non-human subjects. “It’s generally
expected that a carcinogenicity study be conducted in
two rodent species to support marketing approval of a
new chemical entity for a chronic use indication.” (ECF
No. 365 at 110:14-17.) Plaintiffs performed two such
studies, and their results are reflected in the Nonclinical Toxicology section of the Vascepa label. (Id. at
111:11-20; see also Ex. 1186 at 8.) Both rodent studies,
the rat study described in the first paragraph and the
mouse study described in the second paragraph of the
section, “supported there was no carcinogenic potential
of icosapent ethyl.” (ECF No. 365 at 112:11-7.)
The Clinical Studies section of the Vascepa label,
sub-heading 14.2, describes the design and results of
the MARINE study, the primary study that established Vascepa’s effectiveness at reducing triglycerides
in adult patients with severe (≥ 500 mg/dL) hypertriglyceridemia. (Ex. 1186 at 10-11.)10
The Clinical Studies section, “14.2 Severe Hypertriglyceridemia,” begins by summarizing the major design characteristics of the MARINE study. Section
14.2 states:
10

The 2019 label added to the Clinical Studies section the design and results of the REDUCE-IT study, under subheading 14.1.
(Ex. 1186 at 8-10.) Like the rest of the REDUCE-IT Indication,
this portion of the Clinical Studies section is carved out of Defendants’ labels.

29a
The effects of Vascepa 4 grams per day were
assessed in a randomized, placebo-controlled,
double-blind, parallel-group study of adult patients (76 on Vascepa, 75 on placebo) with severe hypertriglyceridemia. Patients whose
baseline TG levels were between 500 and 2,000
mg/dL were enrolled in this study for 12 weeks.
The median baseline TG and LDL-C levels in
these patients were 684 mg/dL and 86 mg/dL,
respectively. Median baseline HDL-C level
was 27 mg/dL. The randomized population in
this study was mostly Caucasian (88%) and
male (76%). The mean age was 53 years and
the mean body mass index was 31 kg/m^2.
Twenty-five percent of patients were on concomitant statin therapy, 28% were diabetics,
and 39% of the patients had TG levels >750
mg/dL.
(Ex. 1186 at 10-11.)
Next, Section 14.2 of the Clinical Studies Section
includes a table summarizing the “major lipoprotein lipid parameters for the groups receiving Vascepa or
placebo” and beneath the table is a brief summary of
the conclusions. (Id. at 11, Tbl. 2.)

30a

Beneath Table 2, there is a paragraph highlighting key
results of the MARINE trial. (Id.) Amarin included
the statements below Table 2 because it wanted to “apprise[]” “healthcare professionals” and “draw the
healthcare professional’s attention” to the “key information from that pivotal trial.” (ECF No. 365 at 98:899:14.)
The Patient Counseling Information section of the
Vascepa label instructs clinicians to “[a]dvise the patient to read the FDA-approved patient labeling before
starting Vascepa (Patient Information),” and then lists
five topics for discussion with patients: (1) the potential increased risk for atrial fibrillation or atrial flutter;
(2) the potential for allergic reactions in patients with
hypersensitivity to fish and/or shellfish; (3) the increased risk of bleeding, particularly in patients receiving other antithrombotic agents; (4) the need to swallow Vascepa capsules whole, and (5) and the need to
take Vascepa as prescribed. (See Ex. 1186 at 11-12.)

31a
The Patient Information page at the end of the label is a handout that patients may take with them. It
reiterates much of the same information included in the
label itself, but in lay language. (ECF No. 366 at
359:11-24; see also Mathers Dep. Tr. 126:2-5, 7-20 (explaining how the Patient Information page distills information into user-friendly language).)
Among other things, the Vascepa Patient Information sheet instructs patients to “[t]ake Vascepa exactly as your doctor tells you to take it” and to “not
change your dose or stop taking Vascepa without talking to your doctor.” (Ex. 1186 at 13-14.) The Patient
Information sheet also instructs patients to “[t]ake
VASCEPA capsules whole” and to “not break, crush,
dissolve, or chew VASCEPA capsules before swallowing.” (Id.) The Patient Information sheet also advises
that “your doctor may do blood tests to check your triglyceride and other lipid levels while you take
VASCEPA.” (Id.)
G. Obviousness
“Obviousness is a question of law based on underlying factual findings.” Power Integrations, Inc. v.
Fairchild Semiconductor Int’l, Inc., 711 F.3d 1348, 1355
(Fed. Cir. 2013). The Court now discusses below its
factual findings relevant to the question of whether the
Asserted Claims are obvious in view of the combinations of prior art advanced by Defendants.
1. Scope and Content of the Prior Art
The parties agree that the relevant prior art includes certain pieces of prior art. (ECF No. 324 at 616.) “[T]he scope of the relevant prior art … includ[es]
that reasonably pertinent to the particular problem
with which the inventor was involved. … A reference

32a
is reasonably pertinent if, even though it may be in a
different field of endeavor, it is one which, because of
the matter with which it deals, logically would have
commended itself to an inventor’s attention in considering his problem.” In re GPAC Inc., 57 F.3d 1573, 157778 (Fed. Cir. 1995) (quotation omitted). Amongst those
references that the parties agree are prior art, the
Court only discusses below the references that are relevant to its findings of law.
a) Priority Date
Plaintiffs proposed a priority date for all Asserted
Patents of March 2008, based on emails sent by one of
the Inventors (Manku (ECF Nos. 331 at 10, 377 at 17476)) while Defendants proposed a priority date of February 2009, the filing date of the patents (ECF Nos. 333
at 55, 373 at 58-64). But the disputed priority date is
not material, because Defendants argue all Asserted
Claims would have been obvious as of Plaintiffs’ alleged
conception date in March 2008. (ECF No. 373 at 167 n.
14.) Further, both sides’ experts assessed obviousness
as of March 2008, and made clear that their opinions
would not change if the priority date was February
2009. (ECF Nos. 367 at 827:8-10; 370 at 1638:5-10.)
Thus, the Court assumes without deciding that the Asserted Patents are entitled to a priority date of March
2008, and its conclusions of law also address obviousness as of March 2008.
b) Lovaza PDR (2007)
The Lovaza PDR (Physician’s Desk Reference) was
published in 2007 and is prior art to the patents-in-suit.
Lovaza PDR discloses a commercially-available
preparation of EPA and DHA administered at 4
grams/day, a pharmaceutical known as Lovaza. (Ex.

33a
1535 at 2.) While the Lovaza PDR published in the
2008 version of the Physician’s Desk Reference, Lovaza
was first commercially launched in 2004. (ECF No. 367
at 745:10-21.) Lovaza PDR discloses that “Lovaza is
indicated as an adjunct to diet to reduce triglyceride
(TG) levels in adult patients with very high ( 500
mg/dl) triglyceride levels.” (Ex. 1535 at 3.) As of the
alleged priority date, Lovaza was “widely used” and “a
very successful drug.” (ECF No. 371 at 1891:7-12.)
Lovaza PDR discloses clinical trials in which Lovaza was administered as either “add-on therapy” to a
statin or as “monotherapy.” (Ex. 1535 at 2.) Under
“High Triglycerides: Add-on to HMG-CoA reductase
inhibitor therapy,” the label explains:
The effects of Lovaza 4 g per day as add-on therapy
to treatment with simvastatin were evaluated in a
randomized,
placebo-controlled,
double-blind,
parallel-group study of 254 adult patients (122 on
Lovaza and 132 on placebo) with persistent high
triglycerides (200-499 mg/dL) despite simvastatin
therapy (Table 1).
(Id.)
In this study, Lovaza PDR explains that all patients were treated with “simvastatin 40 mg per day for
8 weeks prior to randomization to control their LDLC.” (Id.) After the addition of Lovaza 4 g per day to
simvastatin 40 mg per day, the median change in LDLC was an increase of 0.7% compared to baseline. (Id.)
Relative to placebo, Lovaza 4 g per day further “significantly reduced” TG and Apo B levels. (Id.) A POSA
reading Lovaza PDR would understand that “when
Lovaza is used with simvastatin, Apo B is decreased by
4.2 percent” and “there’s barely any LDL-C increase.”
(ECF No. 371 at 1872:19-24.) In fact, the combination

34a
of Lovaza and simvastatin essentially caused “zero” increase in LDL-C. (Id. at 1872:22-1873:2.)
Lovaza PDR also discloses data under “Very High
Triglycerides: Monotherapy” in which “[t]he effects of
Lovaza 4 g per day were assessed in two randomized,
placebo-controlled, double-blind, parallel group studies
of 84 adult patients (42 on Lovaza, 42 on placebo) with
very high triglyceride levels (Table 2).” (Ex. 1535 at 2.)
Table 2 summarizes data from “two studies of 6 and 16
weeks duration.” (Id.) In the monotherapy study in
patients with very high triglycerides, treatment with
Lovaza 4 g/day significantly reduced triglycerides but
also caused a significant increase in LDL-C (an increase
of 44.5% compared to baseline and 49.3% compared to
placebo). (Id. at 3.)
Lovaza PDR therefore discloses “Lovaza treatment
may result in elevations in LDL-C and non-HDL-C in
some individuals.” (Id.) However, as of March 2008, a
skilled artisan “would understand that if a patient experiences LDL-C increases from Lovaza, [a] statin
could be added to address that side effect.” (ECF No.
371 at 1891:22-25.) A skilled artisan likewise knew that
“Lovaza could be safely administered with statins” and
was “typically well-tolerated.” (Id. at 1874:22-24,
1893:9-11; see also ECF No. 367 810:11-14.) In fact,
Lovaza’s “rise in LDL-C was often offset by concurrent
treatment with statins. The safety and efficacy of using
prescription Omega-3 in combination with a statin has
been well-established.” (Ex. 1953 at 233; see also ECF
Nos. 371 at 1875:2-16, 367 at 809:21-810:10.)
c) Mori (2000)
Mori, et al., Purified Eicosapentaenoic and Docosahexaenoic Acids Have Differential Effects on Se-

35a
rum Lipids and Lipoproteins, LDL Particle Size, Glucose, and Insulin in Mildly Hyperlipidemic Men, 71
Am. J. Clinical Nutrition 1085-94 (2000) (“Mori”) was
published in 2000 and is prior art to the patents-in-suit.
Mori discloses “a double-blind, placebo-controlled
trial of parallel design, [where] 59 overweight, nonsmoking, mildly hyperlipidemic men were randomly assigned to receive 4 g purified EPA, DHA, or olive oil
(placebo) daily while continuing their usual diets for 6
wk.” (Ex. 1538 at 1-2.) The objective of Mori was “to
determine whether eicosapentaenoic (EPA) and docosahexaenic (DHA) acids have differential effects on
serum lipids and lipoporoteins.” (Id. at 1.)
Mori discloses that among the three treatment
arms, “[c]apsules contained either purified preparations
of EPA ethyl ester (~96%), DHA ethyl ester (~92%), or
olive oil (~75% oleic acid ethyl ester).” (Id. at 2.) Further, “[n]one of the subjects were regularly taking nonsteroidal antiinflammatory, antihypertensive, or lipidlowering drugs or other drugs known to affect lipid metabolism.” (Id. at 3.) Therefore, none of the patients in
Mori were on concurrent lipid-altering therapy. (ECF
No. 367 at 739:22-25.)
Mori reports that triacylglycerols (TGs) “decreased
significantly by 18.4% with EPA (P = 0.012) and by 20%
with DHA (P = 0.003).” (Ex. 1538 at 3.) A POSA would
consider this difference in triglyceride reduction “indistinguishable and of no clinical significance.” (ECF No.
367 at 740:1-13.) A POSA would likewise recognize that
Mori teaches that “4 grams pure EPA could reduce triglycerides by about 20 percent.” (ECF No. 371 at
1826:24-1827:5.)
Mori also reports that “[s]erum LDL cholesterol increased significantly with DHA (by 8%; P = 0.019), but

36a
not with EPA (by 3.5%; NS),” (Ex. 1538 at 3), “strongly
suggesting that these two Omega-3 fatty acids could
have distinct effects on LDL cholesterol levels” (ECF
No. 367 at 740:1-17). In the Abstract, Mori summarizes
these results as showing that while “LDL, HDL, and
HDL2 cholesterol were not affected significantly by
EPA, … DHA increased LDL cholesterol by 8% (P =
0.019).” (Ex. 1538 at 1; see also ECF No. 371 at 1827:811.) Mori concludes that “EPA and DHA had differential effects on lipids.” (Ex. 1538 at 1; see also ECF No.
371 at 1827:8-19.) Therefore, “a skilled artisan would
understand from Mori that DHA and EPA work differently.” (ECF No. 371 at 1829:6-8.)
d) Hayashi (1995)
Hayashi, et al., Decreases in Plasma Lipid Content
and Thrombotic Activity by Ethyl Icosapentate Purified from Fish Oils, 56(1) Curr. Therap. Res. 24-31
(1995) (“Hayashi”) was published in 1995, and is prior
art to the patents-in-suit.
Hayashi reports the daily administration of 1.8
grams per day of purified EPA over a period of eight
weeks to patients with a serum triglyceride level above
150 mg/dl. (Ex. 1532 at 4.)
Hayashi investigated the effects of EPA in patients
with “familial combined hyperlipidemia ([“]FCH[“])
showing phenotype IIa, IIb, or IV.” (Id.) While
Hayashi defined all three phenotypes as “FCH,” (id.), a
POSA would have understood that phenotype IV refers
to the Fredrickson system of classifying lipid disorders.
(ECF No. 371 at 1866:10-12.) Fredrickson Type IV is
not limited to patients with triglycerides > 500 mg/dL.
(See, e.g., Ex. 2005 at 6 (reporting a Zocor study in
which patients with Fredrickson Type IV had a median

37a
triglyceride level of 404 mg/dL).) However, this phenotype includes patients with severe hypertriglyceridemia. (See, e.g., Ex. 1986 at 21 (reporting a Lipitor study
with a median baseline triglyceride level of 565 mg/dL
in patients with Fredrickson Type IV); Ex. 3007 at 1112; Ex. 939 at 5 (reporting a Lovaza study “in patients
with severe hypertriglyceridemia, type IV, with 500 <
TG < 2000 mg/dl”).)
A POSA would have understood that Hayashi includes at least one patient with triglyceride levels > 500
mg/dL in light of Hayashi’s data. (ECF No. 367 at
725:21-727:1.) Table I reports that at baseline, the patients in the study had a triglyceride level of 300 ± 233
mg/dl. (Ex. 1532 at 5.) Dr. Heinecke11 explained that
while “there is some ambiguity in this paper about
what the meaning is of the plus minus 233[,] … overwhelmingly, in the medical literature, that would be a
standard deviation.” (ECF No. 367 at 725:21-727:1.)
The standard deviation is the average spread of the
data around the mean value of 300 mg/dl (for a normal
distribution of data, two-thirds of the data points are
within one standard deviation of the mean). (Id.) Accordingly, as Dr. Heinecke explained, “[b]ecause there’s
a value of plus or minus 233, there was at least one patient in that study who had a value of greater than 300,
and because that’s only encompassing two-thirds of the
data, one-sixth of the patients would likely have been
above 533.” (Id.) Although Dr. Lavin initially told the
PTO12 that not even one patient in Hayashi would have
11
12

Defendants’ invalidity expert.

Plaintiffs submitted a declaration from Dr. Lavin to overcome an initial rejection for obviousness of the ’889 Application.
(See ECF No. 324 at 16-18 (stipulating to facts providing more details about these interactions).)

38a
had triglyceride levels > 500 mg/dL, Dr. Lavin later
testified that he would “rewrite” his declaration on this
point, explaining that in Hayashi “you know that there
must be at least one subject” with triglyceride levels >
500 mg/dL, and that it is “likely that you have one or
two observations above 533.” (Lavin Dep. Tr. at
102:24-103:21.) Dr. Toth13 did not “offer any type of
statistical opinion to corroborate what Dr. Lavin told
the patent office.” (ECF No. 371 at 1868:13-16.)
Dr. Heinecke explained that there is an alternative
theory that Hayashi’s reference to 300 ± 233 mg/dl instead refers to the range of triglyceride values, rather
than the standard deviation. (ECF No. 367 at 725:21727:1.) But “this would be very unusual,” and in any
case, under that interpretation there would still be “at
least one patient in the study that had a value of 533.”
(Id.) Therefore, under either interpretation of Hayashi,
at least one patient had triglyceride levels > 500 mg/dL.
(Id. at 727:2-6.)
Hayashi discloses that “[a]fter 8 weeks, patients
treated with ethyl icosapentate showed significant reductions in … triglyceride (41%),” and reports reductions in LDL-C (7%) and apolipoprotein B (7%), which
was not statistically significant. (Ex. 1532 at 5.)
Hayashi therefore concludes that “[p]urified icosapentate (1800 mg/d for 8 weeks) decreased total cholesterol
and triglyceride in patients with FCH (Table I),” and
that “[n]o overt effects of icosapentate on plasma LDLC and HDL-C were seen, although a decrease in LDLC was noted (Table I).” (Id. at 7.)
Hayashi does not report the LDL-C data of patients with triglycerides > 400 mg/dL because Hayashi
13

Plaintiffs’ invalidity expert.

39a
used the Friedewald equation to calculate LDL-C levels. (Id. at 5; see also ECF No. 367 at 798:23-800:7.)
The Friedewald equation is commonly used in clinical
studies to calculate LDL-C levels and operates by using triglyceride levels to estimate LDL-C levels, but “is
not accurate for triglycerides above 400 milligrams per
deciliter.” (ECF No. 367 at 798:23-800:7.) But while
Hayashi does not report LDL-C data in patients with
triglycerides > 400 mg/dL, Hayashi does not limit its
conclusion regarding EPA’s effects on LDL-C levels to
patients with lower triglyceride levels. Hayashi concludes that “[a]lthough the effects of fish oils on plasma
LDL-C and HDL-C are complex, judging from the present study, purified icosapentate apparently has no deleterious effect on plasma LDL-C or HDL-C in patients
with FCH.” (Ex. 1532 at 7.) Again, some patients with
FCH—including at least one patient in the Hayashi
study—have triglyceride levels above 500 mg/dL. (Id.;
see also ECF No. 367 at 725:21-727:1; Lavin Dep. Tr. at
102:24-103:21.)
e) Kurabayashi (2000)
Kurabayashi, et al., Eicosapentaenoic Acid Effect
on Hyperlipidemia in Menopausal Japanese Women.
Obstet. Gynecol. 96:521-8 (2000) (“Kurabayashi”) was
published in 2000 and is prior art to the patents-in-suit.
Kurabayashi investigated the effects of administering purified EPA (96.5% EPA) at a dose of 1.8 g/day in
combination with estriol (the “EPA group”) as compared to estriol therapy alone (the “control group”) for
forty-eight weeks to hyperlipidemic, menopausal women. (Ex. 1534 at 1.) Estriol is a form of estrogen that is
commonly used in menopausal women to alleviate the
symptoms of menopause. (ECF No. 367 at 735:2-20.)

40a
As an estrogen, estriol is known to elevate triglyceride
levels. (Id.)
Despite coadministration with estriol, Kurabayashi
reports a statistically significant 27% reduction in triglyceride levels in the EPA group. (Ex. 1534 at 3.) As
compared to the control group, the EPA group experienced a statistically significant reduction in triglyceride
levels at the 12, 24, and 48-week checkpoints:

(Id. at 4.) Kurabayashi further reports that “[l]owdensity lipoprotein cholesterol levels in both groups
were significantly lower.” (Id. at 3.)
Kurabayashi further reports a statistically significant reduction in Apo B levels in the EPA group of
6.9%. (Id. at 4-5.) With a p-value of < .001, EPA’s ef-

41a
fects on Apo B were highly significant. (Id.; see also
ECF No. 367 at 737:1-23.) In contrast, Kurabayashi reports a non-statistically significant 1.5% reduction in
Apo B levels in the control group:

(Ex. 1534 at 5; see also ECF No. 367 at 737:1-23.)
The results reported in Kurabayashi do not suggest
any interaction or synergy between EPA and estriol.
(ECF No. 367 at 735:21-736:9.) Instead, synergy is
usually only seen between drugs that have similar effects, such as two drugs that reduce blood pressure.
(Id.)
In light of the statistically-significant differential
effects reported between the EPA and control groups,
a POSA would have attributed the reduction in Apo B
to EPA. (Id. at 737:24-738:8.)
f) Rambjør 1996
Plaintiffs rely on Rambjør to argue that a POSA
would have understood that EPA increased, not decreased, LCL-C levels. (ECF No. 377 at 224-26.)
Rambjør reports that EPA “produced significant decreases in both TG and very low density lipoprotein
(VLDL) cholesterol,” but was also associated with a
statistically significant “increase[] in low density lipoprotein cholesterol levels.” (Ex. 1961 (Rambjør, et al.,

42a
Eicosapentaenoic Acid Is Primarily Responsible for
Hypotriglyceridemic Effect of Fish Oil in Humans, 31
Lipids S-45 (1996) (“Rambjor”)) at 3.) But Rambjor
used only 3 g/day of EPA that was only 91% pure. (Id.)
Because “omega-3s are complex,” Dr. Toth testified
that a skilled artisan “would have no idea” what fatty
acids are in the other 9%, which could have included a
substantial amount of DHA. (ECF No. 371 at 1814:1722.)
Rambjor does not appear authoritative for other
reasons as well. Rambjor consolidated data from three
separate studies, and only included 9 patients in the
DHA group. (Ex. 1961 at 4.) Rambjor further only included a 2-week washout period, and patients were only
given EPA or DHA for a period of 3 weeks. (Id. at 3.)
The Rambjor study was therefore underpowered, and
its design of comparing the effects of two drugs with a
significantly different number of subjects in each group
was unusual. (ECF No. 367 at 782:4-783:1.) Rambjor
itself concluded that “[f]urther studies are needed to
clearly define individual effects of EPA and DHA on
human lipid metabolism.” (Ex. 1961 at 6.)
Mori is “one of those further studies” that clearly
defined the individual effects of EPA and DHA on human lipid metabolism. (ECF No. 371 at 1842:10-17.)
Mori, which published after Rambjor, criticized Rambjor’s design as studying “only a small number of subjects in the DHA group,” for being of “short duration,”
and for including “only a 2-wk washout period between
treatments.” (Ex. 1538 at 5, 9.) In contrast to Mori—
which studied the claimed EPA dose and purity (4/g
day at 96% purity), (Ex. 1538 at 2)—the EPA studied in
Rambjor was only 91% pure and administered at only 3
g/day (Ex. 1961 at 3; see also ECF No. 371 at 1841:71842:1). A POSA as of March 2008 thus would have re-

43a
lied on the teachings of Mori over those in the earlier
Rambjor reference—particularly if the skilled artisan
were focusing on a dose of 4 g/day and at least 96% purity, as used in Mori but not in Rambjor. (ECF No. 367
at 784:22-785:2.) This is evidenced by the fact that Mori
has been repeatedly cited in the literature, including
Plaintiffs’ internal documents and submissions to the
FDA, but Plaintiffs have not identified any trial exhibit
that cites Rambjor other than von Schacky, discussed
below. (See, e.g., Ex. 1816 at 68 (summarizing over a
dozen prior-art EPA studies to FDA, including Mori
but not Rambjor); Ex. 1800 at 12-13 (summarizing
DHA and EPA’s effects on LDL-C in an investor
presentation and citing Mori but not Rambjor).)
g) Von Schacky (2006)
Another reference relied on by Plaintiffs (see, e.g.,
ECF No. 377 at 226-229), von Schacky, did not report
any primary data on EPA or DHA’s effects, but reported in a table that studies suggested that both EPA
and DHA increase LDL-C. (Ex. 1605 (von Schacky, A
review of omega-3 ethyl esters for cardiovascular prevention and treatment of increased blood triglyceride
levels, Vascular Health and Risk Management 2(3):251262 (2006) (“von Schacky”)) at 9; see also ECF No. 371
at 1844:9-14.) The table, however, merely included arrows pointing in different directions and did not attribute any significance to any of the variables reported.
(Ex. 1605 at 9; see also ECF No. 367 at 785:23-786:22.)
Von Schacky further reported inconsistent information, citing Mori and claiming that “[i]n more recent
comparative studies, no effects of either EPA or DHA
… were seen on LDL levels.” (Ex. 1605 at 5.) But as
Dr. Toth conceded, “[t]hat’s not what Mori said.” (ECF
No. 371 at 1847:8-17.) Mori expressly reports that

44a
“[s]erum LDL cholesterol increased significantly with
DHA (by 8%; P = 0.019).” (Ex. 1538 at 1.) Because von
Schacky is a review article, a skilled artisan also would
have looked at the underlying clinical studies cited by
von Schacky, including Mori. (ECF No. 371 at 1848:48.)
In any event, as Dr. Heinecke explained, because
EPA is LDL-neutral, one would expect to see small increases or decreases across studies due to chance alone.
(ECF No. 367 at 740:18-25.) Therefore, if among the
available literature on EPA’s effects on LDL-C one
saw “one-third of the studies showing an increase, onethird of the stud[ies] showing a decrease, and one third
of the stud[ies] showing no effect, that would be very
strong evidence that there was no overall effect on the
intervention.” (Id. 781:21-782:3.)
2. Level of Ordinary Skill in the Art
The determination of obviousness must be done
based on the knowledge possessed by one of ordinary
skill in the art at the time the invention was made. The
Asserted Claims and the prior art are evaluated at the
time of the invention from the standpoint of a POSA. A
POSA is a hypothetical person who is presumed to have
access to, and be aware of, all of the relevant prior art
at the time of the invention. See, e.g., Rothman v. Target Corp., 556 F.3d 1310, 1318 (Fed. Cir. 2009). Factors
that may be considered in determining the level of ordinary skill in the art may include: (1) type of problems
encountered in the art; (2) prior art solutions to those
problems; (3) rapidity with which innovations are made;
(4) sophistication of the technology; and (5) educational
level of active workers in the field. See Daiichi Sankyo
Co. v. Apotex, Inc., 501 F.3d 1254, 1256 (Fed. Cir. 2007).
Thus, it is not permissible to use hindsight after view-

45a
ing the claimed invention to determine questions of obviousness or to rely at all on the teachings of the
claimed invention in determining whether one of ordinary skill in the art would find the invention obvious.
See, e.g., Millennium Pharm., Inc. v. Sandoz Inc., 862
F.3d 1356, 1367 (Fed. Cir. 2017) (“The inventor’s own
path itself never leads to a conclusion of obviousness;
that is hindsight. What matters is the path that the
person of ordinary skill in the art would have followed,
as evidenced by the pertinent prior art.”) (quoting
Otsuka Pharm. Co. v. Sandoz, Inc., 678 F.3d 1280, 1296
(Fed. Cir. 2012)).
Plaintiffs and Defendants proposed different definitions of the POSA, but those differences are not material because both sides made clear their arguments apply with equal force regardless of the definition the
Court adopts. (ECF Nos. 373 at 64-65, 377 at 173-174.)
The Court therefore assumes without deciding that one
of the two definitions that follow below applies to its
conclusions of law.
Plaintiffs proposed the following definition. (ECF
No. 377 at 173-174.) The POSA in this case world be (1)
a clinician with an M.D., or D.O. and at least 2 to 3
years of experience in the diagnosis, evaluation, and
treatment of lipid blood disorders, including severe hypertriglyceridemia (i.e., TG levels of at least 500 mg/dl),
or (2), alternatively, a clinician, such as a nurse practitioner or physician’s assistant, with 3 to 5 years of experience in the diagnosis, evaluation, and treatment of
lipid blood disorders, including severe hypertriglyceridemia. (See id.)
Defendants proposed the following definition.
(ECF No. 373 at 64-65.) “[T]he POSA to whom the patents in-suit are directed would have had (a) at least a

46a
medical degree or an advanced degree in the field of
lipid biochemistry; (b) several years of experience in
the development and/or clinical use of fatty acids to
treat blood lipid disorders, including fish oil based fatty
acids, i.e., EPA and DHA, and their dosage forms; and
(c) access to a team including one or more of a medical
doctor, an analytical chemist, or a pharmaceutical
chemist.”14 (Id. at 64.)
3. Differences between the Prior Art and
the Claims at Issue
The primary difference between the prior art and
the Asserted Claims is that the Lovaza PDR, Defendants’ principal prior-art reference, used a mixture of
DHA and EPA, while the Asserted Claims involve a
pharmaceutical composition containing purified EPA,
but substantially no DHA. Defendants additionally
point to other pieces of prior art to explain why the
Other Health Benefit Claims were obvious.
Here, all 10 Asserted Claims recite the same method of treatment—namely, a method of reducing triglycerides in a patient with triglycerides of at least 500
mg/dL by administering, for at least 12 weeks, about 4
g/day of at least 96% purified EPA. (Ex. 1500 (’728 patent claims 1 and 16); Ex. 1502 (’715 patent claim 14);
Ex. 1504 (’677 patent claims 1 and 8); Ex. 1506 (’562 patent claim 1); Ex. 1514 (’560 patent claims 4 and 17); Ex.
14

Though, as stated, the Court does not choose between the
two definitions of the POSA proposed by the parties, Defendants’
proposed definition strikes the Court as more reasonable because
it appears calculated to include a person who develops drugs, rather than merely people who would be able to treat a blood lipid
disorder like Plaintiff’s definition does. The key obviousness disputes in this case focus on drug development, not merely treatment, of blood lipid disorders.

47a
1516 (’929 patent claims 1 and 5).) The Lovaza PDR
taught a method of treating patients with triglycerides
of at least 500 mg/dL by administering, for at least 12
weeks, 4 g/day of a mixture of EPA and DHA. (Ex.
1535 at 2-3.)
The Lovaza PDR warned, however, that this method of treatment could substantially increase patients’
LDL-C levels (at least at a median triglyceride level of
816 mg/dL), which was undesirable. (Id. at 3.) Mori
taught that DHA increased LDL-C, whereas 4 g/day of
96% purified EPA reduced triglycerides without increasing LDL-C. (Ex. 1538 at 2-3.) Other prior art
(e.g., Kurabayashi and Hayashi) similarly taught that
EPA did not increase LDL-C in patients with triglyceride levels up to 400 mg/dL. (ECF No. 367 at 715:10716:4, 759:10-760:1.)
4. Secondary Considerations
The Court’s obviousness inquiry must also consider
whether objective indicia of non-obviousness support
the Asserted Claims. “Such secondary considerations
as commercial success, long felt but unsolved needs,
failure of others, etc., might be utilized to give light to
the circumstances surrounding the origin of the subject
matter sought to be patented.” Graham v. John Deere
Co. of Kansas City, 383 U.S. 1, 17-18 (1966); see also In
re Rouffet, 149 F.3d 1350, 1355 (Fed. Cir. 1998) (explaining that objective evidence of nonobviousness may
include copying, long-felt but unsolved need, failure of
others, commercial success, unexpected results created
by the claimed invention, unexpected properties of the
claimed invention, licenses showing industry respect
for the invention, and skepticism of skilled artisans).
The Court discusses below its factual findings relevant

48a
to its analysis of secondary considerations included in
its conclusions of law further below.
a) REDUCE-IT
Plaintiffs point to the results of the REDUCE-IT
study as objective evidence of nonobviousness. (ECF
No. 379 at 35-37.) The REDUCE-IT study was “a multicenter, randomized, double-blind, placebo-controlled
trial involving patients with established cardiovascular
disease or with diabetes and other risk factors, who had
been receiving statin therapy and who had a fasting
baseline triglyceride level of 135 to 499” mg/dl and a
fasting baseline LDL-C level of 41 to 100 mg/dl. (Ex.
1641 at 1 (the “Bhatt Article”).)
Each subject in REDUCE-IT had a fasting baseline triglyceride level of 135 to 499 mg/dl. (Id. at 2.)
“[B]ecause of the intraindividual variability of triglyceride levels, the initial protocol allowed for a 10% lower
triglyceride level from the target lower limit, which
permitted patients to be enrolled if they had a triglyceride level of at least 135 mg per deciliter.” (Id.) In
May 2013, the first protocol amendment “changed the
lower limit of the acceptable triglyceride level from 150
mg per deciliter to 200 mg per deciliter, with no allowance for variability.” (Id.)
Nevertheless, there was a substantial fraction of
patients in the REDUCE-IT Study with median triglyceride values <150 mg/dL during the study, given
that the inclusion criteria for triglycerides was limited
to the screening exam for entry into the study and because triglyceride levels can vary over a wide range.
More specifically, about 10% of subjects had triglyceride levels below 150 mg/dl, about 30% had triglyceride
levels between 150 and 200 mg/dl, and the remaining

49a
subjects had triglyceride levels about 200 mg/dl. (Id. at
4, Table 1.)
While a small subset of patients had triglyceride
levels that rose above 500mg/dl at some point in time
during the REDUCE-IT study due to intraindividual
variability, “REDUCE-IT focused on patients with triglycerides below 500.” (ECF No. 371 at 1894:12-14.)
Again, “eligible patients … had to have a fasting triglyceride level of 150 to 499 milligrams per deciliter.
This is less than 500 milligrams per deciliter.” (ECF
No. 367 at 818:18-21.) Thus, REDUCE-IT was not “designed to evaluate patients [with] triglycerides above
500” and did not include any patients with a baseline
triglyceride level of 500 mg/dl or above. (Id. at 819:1416.) Dr. Budoff agreed that “REDUCE-IT focused on a
different patient population than the patient population” for Defendants’ labels. (ECF No. 366 at 530:1619.) In fact, the MARINE study and REDUCE-IT
study, and thus the related indications, involved “completely different patient populations.” (Id. at 589:21-1.)
Additionally, “[a]ll the patients in REDUCE-IT
were taking statins.” (ECF No. 371 at 1896:15-17.)
More specifically, “[e]ligible patients … had been receiving a stable dose of a statin for at least 4 weeks.”
(Ex. 1641 at 2; see also ECF No. 367 at 821:9-22.) Thus,
“in REDUCE-IT, we’re talking about patients who are
already on a statin for controlling their bad cholesterol.” (ECF No. 365 at 271:10-13.) “REDUCE-IT did not
have a monotherapy arm,” i.e. an arm with patients not
taking a statin. (ECF No. 371 at 1897:5-7.) In fact, “it
would have been unethical to have just a Vascepa monotherapy arm. The FDA would never allow it because
statin therapy is the standard of care for patients in
secondary prevention for high risk diabetic patients.”
(Id. at 1897:7-10.) And approximately 58.6% of the pa-

50a
tients enrolled in the treatment arm of the REDUCEIT Study were diabetics. (Ex. 1641 at 4, Table 1.)
Patients in REDUCE-IT were randomly assigned
to receive either 4 g/day of Vascepa or placebo (mineral
oil). (Id. at 1-2.) “The primary efficacy end point was a
composite of cardiovascular death, nonfatal myocardial
infraction (including silent myocardial infarction), nonfatal stroke, coronary revascularization, or unstable
angina in a time-to-event analysis.” (Id. at 3.) “The key
secondary end point [was] a composite of cardiovascular death, nonfatal myocardial infarction, or nonfatal
stroke in a time-to-event analysis.” (Id. at 3.) A total of
8179 patients were enrolled and were followed for a
median of 4.9 years. (Id. at 1, 5.)
“The median change in triglyceride level from baseline to 1 year was a decrease of 18.3% … in the icosapent ethyl group and an increase of 2.2% … in the placebo group.” (Id. at 5.) The median reduction [in triglyceride level] from baseline … was 19.7% greater in
the icosapent ethyl group than in the placebo group.”
(Id.) “Baseline triglyceride levels (≥ 150 vs. <150mg
per deciliter or ≥200 or < 200 mg per deciliter) had no
influence on the primary or key secondary efficacy end
points.” (Id. at 7.) “The attainment of triglyceride levels of 150 mg per deciliter or higher or below 150 mg
per deciliter at 1 year after randomization also had no
influence on the efficacy of icosapent ethyl as compared
with placebo with respect to the primary or key secondary efficacy end point.” (Id.)
Thus, the REDUCE-IT benefits “occur[ed] irrespective of the attained triglyceride level,” and “the
cardiovascular risk reduction was not associated with
attainment of a more normal triglyceride level.” (Id. at
10; see also ECF No. 367 at 817:2-5.) As Dr. Toth

51a
pointed out, “even if [a subject] didn’t normalize [their]
triglycerides in [the] trial, [they would] still derive a
benefit.” (ECF No. 370 at 1624:18-20.) With respect to
LDL-C levels, “[t]he median change in LDL cholesterol
level from baseline was an increase of 3.1% … in the
icosapent ethyl group and an increase of l0.2% … in the
placebo group.” (Ex. 1641 at 5.) REDUCE-IT “found
no substantial difference in the benefit” of EPA based
on whether patients “had an increase in LDL cholesterol levels at 1 year or had no change or a decrease in
LDL cholesterol levels.” (Id. at 7.) Thus, “[t]here was
no relationship to the change in LDL cholesterol levels
to the benefit in terms of cardiovascular risk reduction.” (ECF No. 367 at 820:22-24.)
In November 2018, Plaintiffs announced that REDUCE-IT identified a cardiac benefit in patients receiving Vascepa as compared to placebo. The results
show that “[a] primary end-point event occurred in
17.2% of the patients in the icosapent ethyl group, as
compared with 22.0% of the patients in the placebo
group.” (Ex. 1641 at 1.) “A key secondary efficiency
end-point event … occurred in 11.2% of the patients in
the icosapent ethyl group, as compared with 14.8% of
the patients in the placebo group.” (Id. at 5.) The rate
of cardiovascular death was 4.4% in the icosapent ethyl
group and 5.2% in the placebo group. (Id. at 7.) According to the Kaplan-Meier plots—which demonstrate
results for certain time intervals—in the Bhatt Article,
the cardiac benefits were not observed until patients
had been taking 4 g/day of Vascepa for a year or more.
(Id. at 5.)
In other words, there is no “evidence that the cardiovascular risk reduction in REDUCE-IT occurs within 12 weeks … Instead there is no divergence [between
the treated group and placebo group] in terms of cardi-

52a
ovascular risk until year one, and that difference did
not become statistically significant until year two.”
(ECF No. 367 at 819:22-24.) Thus, “it takes time to accrue the [cardiovascular benefit], and if you stop it at
four months … then you’re going to lose that benefit.”
(ECF No. 371 at 1896:10-14.)
Based on these REDUCE-IT results, FDA approved Vascepa to reduce the risk of “myocardial infraction, stroke, coronary revascularization, and unstable angina requiring hospitalization” in patients that
had “elevated triglyceride (TG) levels (≥ 150 mg/dL),”
and either an “established cardiovascular disease or diabetes mellitus and 2 or more additional risk factors for
cardiovascular disease.” (Ex. 2248 at 1.)
“Amarin has separate patents covering the method
used in the REDUCE-IT study … [and] those patents
are not being asserted in this case.” (ECF No. 371 at
1895:4-10.) Amarin submitted a Form 3542a for the
REDUCE-IT sNDA. (Ex. 2250.) Through this form,
Plaintiffs represented to FDA that only the patents
listed relate to Vascepa’s REDUCE-IT indication. (Ex.
2299.) None of the asserted patents were listed. If
Plaintiffs believed that the asserted patents claimed “a
method of using [Vascepa] that is the subject of” the
REDUCE-IT indication, they would have had to list
those patents on the Form 3542a included with their
sNDA. (Ex. 2250.) See also 21 C.F.R. § 314.53(b). As
discussed above, there is no overlap between the patents listed for the REDUCE-IT indication and the asserted patents. (Ex. 2299.)
b) Commercial Success
The parties dispute whether Vascepa, which embodies the Asserted Claims, is a commercial success.

53a
Predictably, Plaintiffs argue it is (ECF No. 379 at 3738), Defendants argue it is not (ECF No. 378 at 32).
The parties also presented competing expert testimony
on this topic at Trial. (ECF No. 369.) Having considered the expert testimony and other evidence presented by both sides, the Court finds Plaintiffs’ argument—
that Vascepa is a commercial success—more persuasive.
More specifically, substantial and sustained increases in Vascepa prescriptions, net sales, and market
share, as well as Vascepa’s positive net present value
(“NPV”), demonstrate that Vascepa is a commercial
success. (ECF No. 369 at 1423:3-15.)
Prescriptions for Vascepa have grown substantially
since the product’s launch in January 2013. 174,000
prescriptions for Vascepa were filled in 2013, and the
number increased every year, reaching 1.3 million prescriptions in 2018, an average annual increase of about
50%. (Id. at 1427:9-17.) This increase indicates that patients and health insurers are willing to pay a premium
for the features of Vascepa, given that a relatively inexpensive generic version of Lovaza has been available
since 2014. (Id. at 1427:18-1428:3.)
Vascepa’s net sales have also grown substantially
since the product’s launch. Vascepa’s net sales were
$26 million in 2013 and have increased every year,
reaching $228 million in 2018, an average annual increase of 54%. (Id. at 1429:2-9.) The increase indicates
that the product is providing value and that patients
and health insurers are willing to pay a premium for
the features of Vascepa. (Id. at 1429:10-15.) Moreover,
the Court finds Defendants’ contention that Vascepa’s
sales are driven by rebates and discounts unpersuasive.
(ECF No. 373 at 113.) The net sales metric relied upon

54a
by Dr. Nicholson already accounts for all rebates and
discounts. (ECF No. 369 at 1304:17-23, 1429:22-1430:5,
1431:3-14.) In any case, the level of rebates and discounts provided for Vascepa is in line with the industry
norm. (Id. at 1431:3-14, 1433:12; see also Ex. 746 at 5,
10.)
Vascepa’s share of the market for omega-3 fatty acid drugs has also grown every year since its launch.
Vascepa’s share of omega-3 fatty acid prescriptions was
4% in 2013, increasing to 32% in 2018. (ECF No. 369 at
1435:3-16.) In contrast, branded Lovaza’s share of the
same market decreased from approximately 96% in
2013 to under 5% in 2018. (Id. at 1436:19-1437:7.)
Vascepa’s share of the broader market for TG-reducing
drug prescriptions also increased from 1% in 2013 to 6%
in 2018. Vascepa’s increasing market share is a strong
indicator of its increasing value over time. (ECF No.
369 at 1434:8-24, 1435:17-1436:3.) In fact, every other
TG-reducing drug’s prescriptions were decreasing from
2013 to 2018, whereas Vascepa’s prescriptions increased in the same period. That Vascepa has bucked
the trend speaks highly of its performance in the market. (Id. at 1438:7-18.)
Vascepa’s NPV also demonstrates its commercial
success. NPV is the most common method that pharmaceutical companies use to determine whether to
launch a new product and to track whether the product
is successful. (Id. at 1440:1-15, 1444:22-1445:1, 1469:201470:7; see also Ex. 600 at 2, 5; Ex. 602 at 5.) A positive
NPV means that the product is more profitable than
the average for similar products in the industry. (ECF
No. 369 at 1440:16-1441:14, 1443:18-21; Ex. 602 at 10
(“Any time you find and launch a positive NPV project,
a project with present value exceeding its required
cash outlay, you have made your company’s stockhold-

55a
ers better off.”). Vascepa’s NPV is expected to be zero
in 2024, which means that its investors will have recouped their investment and received the industry average return in Vascepa’s twelfth year in the market.
(ECF No. 369 at 1458:5-20.) Over its entire lifecycle,
Vascepa is expected to have a positive NPV of $1.9 billion, which means that it will deliver a return that exceeds the industry average by $1.9 billion. (Id. at
1458:21-1459:4.)
Defendants’ contention that Vascepa is not a commercial success is largely based on the theory that
Vascepa did not make a profit in its first six years on
the market. But Defendants ignore the reality that
drugs have long lifecycles, the beginning of which involves spending vast amounts of money on R&D. (Id.
at 1441:15-1442:7; see also Ex. 612 at 2.) Here, Plaintiffs spent $465 million in research and development
between 2008 and 2018. (ECF No. 369 at 1426:17-24.)
Moreover, marketing spending tends to be higher at
the beginning of a pharmaceutical product’s lifecycle,
given the need to educate physicians about the clinical
profile of the new drug in question. (Id. at 1306:111307:2, 1471:7-1472:1.) At the same time, it can take as
long as 12 years for new drugs in the top ten percent of
sales to achieve peak sales. (Id. at 1468:11-1469:4; see
also Ex. 607 at 20.) Indeed, a study has shown that it
took drugs 16 years on average to reach NPV of zero.
(ECF No. 369 at 1469:20-1470:7; see also Ex. 612 at 6.)
Therefore, the pharmaceutical industry considers the
entire lifecycle of a drug in analyzing commercial success rather than just the first six years after the drug’s
launch. (ECF No. 369 at 1445:23-1446:19, 1468:111469:4, 1512:17-24; see also Ex. 600 at 2.) Defendants’
alternative approach, which relies on taking a snapshot
of Vascepa’s performance after Plaintiffs have incurred

56a
the vast majority of the R&D spending, but before they
have enjoyed the fruits of that spending, is less persuasive in light of the testimony at Trial regarding industry practice.
Defendants also contend that Dr. Nicholson’s NPV
analysis is unreliable because it was excessively influenced by the one of the five forecasts upon which he relied. Defendants’ contention is unpersuasive. The forecast in question is from a firm called H.C. Wainwright,
which (as the evidence showed) does not have a history
of systematically overestimating Amarin’s revenue or
profit. (ECF No. 369 at 1460:22-1463:18; see also Ex.
752 at 2; Ex. 637 at 63; Ex. 658 at 3; Ex. 724 at 4.) In
any event, Vascepa’s NPV is expected to be positive
whether or not H.C. Wainwright’s forecast is included.
(ECF No. 369 at 1465:3-10, 1504:1-16, 1521:6-18.) This
shows that Dr. Nicholson’s NPV analysis is robust and
reliable. Dr. Nicholson’s NPV analysis is also consistent with Defendant Hikma’s own January 2020
presentation to investors, which ranks Vascepa as having the fourth highest U.S. market size among all the
drugs in Hikma’s generic pipeline. (Ex. 1218 at 12.) In
sum, the Court finds that Vascepa is a commercial success.
c) Praise
Plaintiffs also argue that praise for Vascepa weighs
in favor of finding the Asserted Claims nonobvious.
(ECF No. 377 at 269-271.) However, the Court finds
that the evidence Plaintiffs proffer to show praise is
more qualified and equivocal than Plaintiffs represent
in their briefing. Thus, the Court finds Plaintiffs’ proffered evidence of praise does not weigh in favor of finding the Asserted Claims nonobvious.

57a
Plaintiffs’ expert Dr. Toth cited several articles as
purported evidence of such praise at Trial, but none of
them support his opinion. (ECF Nos. 370 at 1722:15-5,
371 at 1848:11-20.) First, Dr. Toth cited the O’Riordan
article, which quoted several doctors on the results of
MARINE. (Ex. 1581.) Specifically, Dr. Toth cited a
statement by Dr. McGuire that “if you can have favorable cardiovascular effects without raising LDL cholesterol, that’s going to be an advantage,” and a statement
by Dr. Nissen that this “gives you all the benefit without the downside.” (Id. at 1-2; see also ECF No. 370 at
1606:24-1612:24.) But as the article reveals, neither
doctor gave unmitigated praise; both expressed caveats
about those statements. Dr. McGuire “was cautious in
interpreting the results” of MARINE, “insert[ed] a
dose of caution,” and made clear that his focus was on
“cardiovascular effects,” not just triglyceride reduction.
(Ex. 1581 at 1.) If anything, Dr. McGuire saved his
praise for “trials such as Japan EPA Lipid Intervention
Study ([“]JELIS[”]),” which actually “showed a favorable signal of reduced cardiovascular events.” (Id.) Similarly, Dr. Nissen “expressed the same caveats” about
MARINE, and noted that he “would like to eventually
see a head-to-head comparison between Lovaza” and
Vascepa, which to date has never been done. (Id. at 2.)
Even apart from these caveats, Dr. Toth ignored the
statement by Dr. Blumenthal, which O’Riordan also reported. As discussed above, Dr. Blumenthal did not
praise Vascepa or MARINE, but instead dismissed
MARINE’s significance because typical increases in
LDL-C with Lovaza were “ ‘ modest’ and ‘not that big
an issue,’ ” especially since Lovaza “works well with
statins.” (Id. at 2.) Given these conflicting statements,
O’Riordan as a whole does not suggest that Vascepa’s

58a
ability to avoid increases in LDL-C has been praised by
the industry.
Second, Dr. Toth relied on articles by Fialkow (Ex.
852) and Castaldo (Ex. 866). (ECF No. 370 at 1612:251615:13.) But those articles merely state the fact that
Vascepa does not increase LDL-C—they do not praise
Vascepa for that reason (or indeed, for any reason).
The statement that Dr. Toth quoted from Fialkow
states that “treatment with the EPA-only product,
icosapent ethyl [i.e., Vascepa] has no LDL-C monitoring requirement.” (Ex. 852 at 5.) Similarly, the statement that Dr. Toth quoted from Castaldo states that
Vascepa “does not increase LDL-C levels, as supported
by clinical studies and the icosapent ethyl product label.” (Ex. 866 at 6.) These matter-of-fact observations,
which merely repeat information from the Vascepa
product label and the MARINE trial, do not praise
Vascepa or the claimed invention. As the Federal Circuit has made clear, such “journal citations that reference the findings stated in [the patentee’s] published
efficacy studies … fall well short of demonstrating true
industry praise.” Bayer Healthcare Pharm., Inc. v.
Watson Pharm., Inc., 713 F.3d 1369, 1377 (Fed. Cir.
2013).
Third, Dr. Toth relied on an Amarin-sponsored article in which Dr. Bays said that MARINE’s results
were “surprising.” (ECF No. 371 at 1848:11-20 (referring to Ex. 833 at 6).) The Federal Circuit has made
clear, however, that such “self-referential commendation [also] fall[s] well short of demonstrating true industry praise.” Bayer, 713 F.3d at 1377; see also In re
Cree, Inc., 818 F.3d 694, 702 (Fed. Cir. 2016) (rejecting
patentee’s reliance on “self-serving statements from
researchers about their own work” as alleged evidence
of praise).

59a
In sum, Plaintiffs have not produced evidence that
the industry “praised” the claimed invention for avoiding an increase in LDL-C. Thus, the Court finds as a
factual matter that Plaintiffs’ proffered evidence of
praise does not support its nonobviousness arguments
discussed in more detail in the Court’s conclusions of
law below.
IV. CONCLUSIONS OF LAW
The Trial focused on induced infringement15 and
whether the Asserted Patents are invalid as obvious in
light of the prior art. The Court first addresses infringement below, and then obviousness.
A. Infringement
1. Legal Standard
“Infringement is a two-step inquiry, in which a
court must first construe disputed claim terms, and
then compare the properly construed claims to the accused device.” Nazomi Commc’ns, Inc. v. Arm Holdings, PLC, 403 F.3d 1364, 1367-68 (Fed. Cir. 2005) (citation omitted). The first step as to Plaintiffs’ allegations
that Defendants’ proposed products as they will be prescribed infringe the Asserted Claims is already complete—the Court has construed the disputed claim
terms. (ECF No. 135.) Plaintiffs bear the burden of
persuasion as to infringement and must therefore prove
all facts necessary to support their infringement claim.
See Medtronic, Inc. v. Mirowski Family Ventures,
LLC, 571 U.S. 191, 198 (2014) (“It is well established
15

While Plaintiffs initially asserted two indirect infringement
theories, the Court granted summary judgment to Defendants on
Plaintiffs’ contributory infringement theory. (ECF No. 278 at 1113.)

60a
that the burden of proving infringement generally rests
upon the patentee.”). Further, “[i]nfringement is a
question of fact.” Apple Inc. v. Samsung Elecs. Co.,
839 F.3d 1034, 1040 (Fed. Cir. 2016) (citation omitted).
In this type of Hatch-Waxman Act patent litigation, where Defendants have filed ANDAs, the question of whether Defendants may be held liable for inducing infringement turns on whether Defendants
“have the specific intent, based on the contents of their
proposed labels, to encourage physicians to use their
proposed ANDA products” in a way that infringes the
Asserted Claims. Grunenthal GMBH v. Alkem Labs.
Ltd., 919 F.3d 1333, 1339 (Fed. Cir. 2019) (citation omitted). In other words, the Court must ask “whether the
label encourages, recommends, or promotes infringement.” Id. (citation omitted). And because the Asserted Claims are method claims, the “pertinent question is
whether the proposed label instructs users to perform
the patented method.” Id. (citation omitted).
Plaintiffs have argued at various points in this case
that they need only show Defendants’ labels will “inevitably lead some physicians to infringe” to establish Defendants’ inducement liability. (See, e.g., ECF No. 327
at 19 (citing Eli Lilly & Co. v. Teva Parenteral Meds.,
Inc., 845 F.3d 1357, 1369 (Fed. Cir. 2017).) Defendants
counter that labels permitting or even describing an
infringing use are insufficient for finding inducement
unless those labels “specifically encourage” or “require”
infringement. (ECF No. 332 at 17-18.) The Court
agrees with Defendants on this point. The fact that
some physicians will infringe when they read and follow
the labels is necessary, but not sufficient to show inducement based on those labels. See Grunenthal, 919
F.3d at 1339 (finding no inducement where the defendants’ proposed ANDA labels did not “specifically en-

61a
courage” using the patented drug in an infringing way);
HZNP Medicines LLC v. Actavis Labs. UT, Inc., 940
F.3d 680, 702 (Fed. Cir. 2019) (“the mere existence of
direct infringement is not sufficient for inducement[,]
[i]nstead, our inquiry focuses on whether the instructions reflect an affirmative or specific intent to encourage infringement.”) (internal quotation marks, punctuation, and citation omitted).16 Thus, the Court’s inducement inquiry focuses on Defendants’ proposed labels,
specifically whether they encourage, recommend, or
promote infringement. See Grunenthal, 919 F.3d at
1339.
///
///
2. Discussion
Though the Court agrees with Defendants’ view of
the induced infringement legal standard, it disagrees
with Defendants’ application of it. (ECF No. 378 at 1219 (arguing against Plaintiffs’ induced infringement theory).) To the contrary, the Court finds Plaintiffs carried
their burden at Trial to show Defendants’ proposed labels17 will induce infringement of the Asserted Claims.
16

Grunenthal distinguished AstraZeneca LP v. Apotex, Inc.,
633 F.3d 1042, 1059-60 (Fed. Cir. 2010), which Plaintiffs also relied
on at Trial in support of an effectively lower inducement burden,
because there “the defendant proceeded with a plan to distribute
the generic drug knowing that its label posed infringement problems.” Grunenthal, 919 F.3d at 1340. Both in Grunenthal and in
this case, the parties relied only on the indications of the proposed
labels, making AstraZeneca inapposite. See id.
17

The Court refers interchangeably to Plaintiffs’ Vascepa labels and Defendants’ proposed labels as they are materially the
same for purposes of this analysis.

62a
The focal point of the Court’s decision is the Clinical
Studies section of the labelling because it provides the
only explicit text that addresses each and every disputed element of the Asserted Claims. As Defendants point
out, the Court found in ruling on the parties’ motions for
summary judgment that there was nothing in the labelling that explicitly told doctors to prescribe the drugs in
an infringing way. (ECF No. 373 at 142.) But the Court
finds—after receiving the benefit of the testimony and
evidence presented at Trial—that the Clinical Studies
section of the labelling recommends or encourages doctors to prescribe the applicable drug in a way that
would, on average, infringe the Asserted Claims.18
Finding otherwise would essentially require finding that
doctors would not read the Clinical Studies section of
Defendants’ proposed labels. Such a finding would be
contrary to medical practice, and contrary to the evidence presented at Trial. Moreover, there is explicit
textual support for Plaintiffs’ inducement theory in the
Clinical Studies section of the labelling for all Asserted
Claims—that a doctor would understand to suggest she
should prescribe the drugs in an infringing way.
Defendants do not dispute that their proposed labelling will induce infringement of many common elements
of the Asserted Claims. (ECF No. 324 at 26-28 (listing
several undisputed elements of the Asserted Claims).)
Instead, Defendants divide their induced infringement
arguments into three parts regarding: (1) the limitation
present in all Asserted claims that the drug must be administered for at least 12 weeks; (2) the limitations present in most Asserted Claims that the drug either re18

As explained supra, other sections of the labelling also provide support for the Court’s findings. The Court highlights the
Clinical Studies section of the label here because it is pertinent to
all Asserted Claims.

63a
duce TG levels by certain percentages, not increase
LDL-C levels, or reduce Apo B levels (the “Other
Health Benefits” claims); and (3) the limitations that exclude co-administration of the drug with a with another
lipid altering drug such as a statin (the “Excluding a
Statin” claims). (ECF No. 378 at 12-19, 32-33, 36-37.)
The Court addresses each of these arguments in turn.
a) 12 Week Limitation
First, the evidence at Trial showed that, based on
the proposed labelling, Defendants’ ANDA Products
will be prescribed for more than 12 weeks a sufficient
percentage of the time for the Court to conclude Defendants will induce infringement of this claim limitation common to all Asserted Claims. A number of factors weigh in favor of this finding. To start, both Plaintiffs’ and Defendants’ experts testified that the indication and usage section of the proposed labels is directed
to reducing TG levels below 500 mg/dL and then maintaining that reduction—suggesting that the applicable
drugs will be prescribed long term. (Compare ECF
No. 366 at 331:18-20, 364:19-365:18, 367:11-368:20,
536:22-537:15 (Plaintiffs’ expert Dr. Budoff testifying as
such) with ECF No. 367 at 672:11-675:2 (Defendants’
expert Dr. Sheinberg conceding he would normally try
to reduce TG levels and then maintain that reduction);
see also ECF No. 368 at 1210:5-8 (Defendants’ expert
Dr. Fischer agreeing that, in many patients, “the indication is to reduce below 500 and to maintain that reduction below 500[.]”).) Were a treating physician to
stop therapy once TG levels had been reduced below
500, “in most cases [the TG levels] will go back up[.]”
(ECF No. 366 at 378:21-379:2; see also 536:22-537:5.)
That also supports Plaintiffs’ view that the drug will
often be prescribed for long-term treatment. So too do

64a
the prescribing practices of experts on both sides, who
testified that they generally prescribe either four or
twelve months of Vascepa at a time. (ECF Nos. 367 at
391:2-8, 393:10-21, 367 at 663:2-19.)
Trial testimony further established that severe hypertriglyceridemia generally has a genetic component,
meaning that it is usually a chronic condition requiring
long-term treatment. (ECF No. 366 at 367:23-25,
373:12-389:25 (discussing various trial exhibits that
support this view, and offering his own testimony to
that effect).) And even Defendant’s expert Dr. Sheinberg agreed that “sometimes severe hypertriglyceridemia is a chronic condition that requires indefinite
drug treatment,” even if his estimate of the percentage
of chronic cases is lower than that of the other witnesses. (ECF No. 367 at 696:16-19.) Thus, there is no real
dispute that severe hypertriglyceridemia is a chronic
condition requiring long-term treatment at least some
of the time. Conversely, there is also no real dispute
that severe hypertriglyceridemia can be an acute condition some of the time, where a person experiences, for
example, a spike in TG levels above 500 after, say, a
bout of binge drinking. (ECF No. 366 at 450:12-15 (“severe hypertriglyceridemia can be an acute phenomenon[.]”).) But overall, the Court finds Plaintiffs’ expert
Dr. Budoff’s testimony to the effect that it is generally
a chronic condition caused by genetics more persuasive.
The Court therefore finds that severe hypertriglyceridemia is generally a chronic condition requiring longterm treatment. Prescribing doctors would bring that
understanding to bear when they read Defendants’ proposed labelling lacking an explicit duration of treatment—and most of them would prescribe Defendants’
proposed ANDA Products for more than 12 weeks.

65a
Moreover, the Clinical Studies section of Defendants’ proposed labelling points towards the Court’s
finding that most doctors would prescribe Defendants’
proposed ANDA Products for more than 12 weeks.
Specifically, the Clinical Studies section of Defendants’
labels, like Vascepa’s label, reports the results of the
MARINE study, which established the effectiveness of
EPA 4 g per day in treating patients with severe hypertriglyceridemia. In describing the important details
of the study, this section of the labeling expressly
states that patients were administered icosapent ethyl
4 g per day “for 12 weeks.” (Ex. 1186 at 11.) And as
Defendants’ regulatory expert Mr. Mathers conceded,
Defendants’ proposed labeling reports the treatment
effects only at 12 weeks, not earlier, and thus reflects
approval for reducing TGs below 500 mg/dL and maintaining that reduction through 12 weeks. (Mathers
Dep. Tr. 97:2-16.) The fact that the Clinical Studies
section describes a 12 week trial suggests to prescribing doctors that they should “try to follow the prescribing information, and if the prescribing information was
done at 12 weeks, then that informs the physician, that
instructs the physician that you should wait 12 weeks
to reassess lipids to see what the full effect of your
treatment is, because [clinicians’] goal when putting
[patients] on Vascepa is to achieve the results in Table
2.” (ECF No. 366 at 372:3-12.”) The labels therefore
encourage, recommend, promote, or suggest that clinicians should administer Defendants’ ANDA Products
for at least 12 weeks to achieve the treatment effects
reported in the labeling. (See id. at 372:16-374:5 (“[T]he
only way I can compare my patient to the label and
what’s being encouraged is to follow the instructions
that are given, and the instructions here are to treat for
12 weeks.”).)

66a
b) Other Health Benefits Claims
Defendants’ narrower noninfringement argument
is directed at the Other Health Benefits claims that require the claimed methods either reduce TG levels by
certain percentages, not increase LDL-C levels, or reduce Apo B levels. (ECF No. 378 at 36-37.) But the
Court finds Defendants’ argument unpersuasive. As
discussed above, the Court finds that a doctor would
read and understand the Clinical Studies section of the
labelling before she prescribed Defendants’ ANDA
Products because it is vital to understanding the effects
of the applicable drug. (See ECF No. 367 at 665:1-13.)
The Clinical Studies section of the labelling describes
how the average patient enrolled in the MARINE
study received the benefits described in the Other
Health Benefits claims. A doctor would read these results as reported in the Clinical Studies section of the
labelling as specifically encouraging infringement of the
Other Health Benefits Claims.
Moving on to focus on the specific claim limitations
within the Other Health Benefits Claims, Defendants’
proposed ANDA labels specifically suggest to doctors
that their ANDA Products will decrease TG levels
without raising LDL-C levels. Not only does the Clinical Studies section report that patients experienced a
5% reduction in LDL-C compared to baseline and a 2%
reduction in LDL-C compared to placebo, the Clinical
Studies section also states that “[t]he reduction in TG
[triglycerides] observed with icosapent ethyl was not
associated with elevations in LDL-C levels relative to
placebo.” (Ex. 1186 at 11; see also ECF No. 366 at
405:5-406:7.) Defendants’ proposed labeling will thus
inform prescribers that the drug is safe and effective
for administration to patients with severe hypertriglyceridemia to reduce TGs without raising LDL-C.

67a
Indeed, Vascepa’s ability to reduce TGs without raising
LDL-C, as depicted in the Clinical Studies section, is a
primary reason clinicians choose to prescribe Vascepa
over other available medications. (ECF No. 366 at
406:7-407:6.) The Clinical Studies section of the labelling therefore suggests to doctors that they can prescribe Defendants’ ANDA Products to lower TG levels
without also raising LDL-C levels.19 For these reasons,
based on the instructions in Defendants’ proposed labeling, Defendants intend their ANDA Products to be
used—and in clinical practice they will be used—
”without substantially increasing LDL-C” as required,
for example, by Claim 1 of the ’728 patent.
Defendants’ proposed ANDA labels also suggest to
treating clinicians that they can expect a decrease in
Apo B levels when they prescribe Defendants’ ANDA
Products. Similar to the analysis above concerning
LDL-C, Defendants will induce infringement of the limitations concerning Apo B because clinicians will read
Defendants’ labeling as encouraging, recommending,
promoting, or suggesting administration of Defendants’
ANDA Products to reduce TGs in severely hypertriglyceridemic patients and in conjunction with the TG
19

Moreover, the Warnings and Precautions section in Defendants’ labeling, like the same section in Vascepa’s labeling,
omits any warning that patients’ LDL-C levels may rise as a result
of treatment. (Ex. 1186 at 2-3.) The absence of a warning would
be conspicuous to clinicians because the prescribing information
for Lovaza and several fibrates contain such a warning. (ECF No.
366 at 407:17-25.) And physicians who treat patients with severe
hypertriglyceridemia would be intimately familiar with the effects
of other available drugs (niacin, fibrates, and Lovaza). (ECF No.
367 at 659:11-18.) The lack of a warning about LCL-C increases in
Defendants’ labeling is thus a further suggestion to doctors that
Defendants’ ANDA Products will decrease TG levels without increasing LDL-C levels.

68a
reduction, “effect a statistically significant reduction …
in apolipoprotein B.” (ECF No. 366 at 427:9-19; see also
ECF No. 369 at 1407:11-15.) Here, too, the Clinical
Studies section of the labeling reports the statistically
significant decrease in Apo B resulting from administration of Vascepa in Table 2 and then calls out in text
below that the drug reduced both median TG and Apo
B. (Ex. 1186 at 11; see also ECF No. 366 at 427:9-22.)
The labeling thus conveys to physicians both the clinical significance of the drugs’ effect on Apo B and the
fact that such a reduction will generally occur in their
patients in clinical practice. (ECF No. 366 at 427:15428:5; see also ECF No. 369 at 1408:19-22 (testifying
that FDA “interpreted this information and it called
out that decrease. And so FDA approved this label, it
approved this drug for the treatment of hypertriglyceridemia while reducing apo B”); Mathers Dep. Tr.
134:10-22 (stating that the Clinical Studies section of
the labeling identifies Apo B among the “relevant parameters to measure on a routine basis and to monitor”). By instructing clinicians that 4 g per day of
icosapent ethyl has been shown to cause a statistically
significant reduction in TGs and Apo B when administered to adult patients with severe hypertriglyceridemia, the Clinical Studies section of Defendants’ labeling
encourages, recommends, promotes, or suggests that
clinicians administer Defendants’ ANDA Products with
the intent to effect a statistically significant reduction
in TGs while having the additional beneficial effect of a
statistically significant reduction in Apo B. For these
reasons, based on the instructions in Defendants’ proposed labeling, Defendants’ intend their ANDA Products to be used—and in clinical practice they will be
used—”to effect a statistically significant reduction …

69a
in apolipoprotein B” as required by Claim 14 of the ’715
patent. (Ex. 22 at 22, Claim 14.)
Defendants’ proposed ANDA labels also suggest to
doctors that they can expect certain reductions in TG
levels by prescribing those ANDA Products, as required by certain other Asserted Claims. Defendants
will therefore induce infringement of these limitations
because clinicians will read the Clinical Studies section
of Defendants’ labeling as encouraging, recommending,
promoting, or suggesting administration of Defendants’
ANDA Products to achieve, on average, the percentage
TG reductions described in certain Asserted Claims.
Table 2 in the Clinical Studies section of Defendants’
proposed labeling, like the same table in Vascepa’s labeling, reports that, when administered for 12 weeks to
patients with severe hypertriglyceridemia, EPA 4 g
per day caused a median 27% reduction in triglycerides
from baseline and a median 33% reduction in triglycerides compared to placebo. (Ex. 1186 at 11; see also
ECF No. 366 at 433:23-434:3.) For these reasons, based
on the instructions in Defendants’ proposed labeling,
Defendants intend their ANDA Products to be used—
and in clinical practice they will be used—to reduce TG
levels by the percentages required by Claim 4 of the
’560 Patent and Claim 17 of the ’560 Patent. (ECF No.
366 at 433:16-435:2, 435:6-436:20.)
c) Excluding a Statin Claims
Defendants’ narrowest noninfringement argument
is directed at the Excluding a Statin claims. (ECF No.
378 at 32-33.) The Court is also unpersuaded by this
argument. To the contrary, the labels of Defendants’
proposed ANDA Products suggest to a doctor that the
drugs could be used with or without a statin or other
lipid-lowering drug.

70a
The Excluding a Statin limitation requires administration of the claimed pharmaceutical composition to a
patient “who does not receive concurrent lipid altering
therapy.” (Ex. 21 at 21-22 Claims 1,16; see also Ex. 22
at 22, Claim 14 (“who does not receive a concurrent lipid altering therapy”).) The Court construed the term
“concurrent lipid altering therapy” to mean “a medication to alter lipid levels in a subject whereby the medication is administered concurrently / concomitantly
with the administration of a pharmaceutical composition comprising ethyl eicosapentaenoate.” (ECF No.
135 at 5-7.) Statins are an example of a “medication to
alter lipid levels.” (ECF No. 366 at 412:1-6, 414:1-20
(identifying statins as concurrent lipid altering therapies).) Based on the Court’s construction, a clinician
who administers Defendants’ ANDA Products to a patient who is not on another lipid altering medication
(e.g., a statin) will directly infringe this limitation.
There is text in several places on Defendants’ proposed labelling that would suggest to doctors Defendants’ proposed ANDA Products could be administered
without a concurrent lipid altering therapy. First, the
Indications and Usage section does not contain any instructions that Defendants’ ANDA Products must be
administered with a lipid-altering drug, though FDA
regulations would have required instructions to that
effect were that the case. (ECF No. 366 at 410:11-25
(testifying that the label does not require concurrent
lipid-altering therapy); Ex. 573 at 7, 12 (stating that coadministration should be listed were it a requirement).)
Second, and similarly, the Dosage and Administration
section of the labelling would have had to mention it,
but did not. (Ex. 572 at 8 (stating any concomitant
medications should be listed in this section); see also
Ex. 1186 at 2 (labelling, which does not include such a

71a
restriction); ECF No. 369 at 1355:3-6 (explaining that
the labelling does not mention such a restriction).)
Third, the Clinical Studies section of the labelling indicates that only 25% of the MARINE study participants
were on a concomitant lipid-altering therapy. (Ex. 1186
at 11.) Clinicians appreciate from this clinical study description that the remaining 75% of patients in the
study described in the Clinical Studies section were not
on concurrent lipid altering therapy (e.g., statins).
(ECF No. 369 at 1413:8-18; see also Mathers Dep. Tr. at
68:1-5, 68:7-15.) For these reasons, based on the instructions in Defendants’ proposed labeling, Defendants intend their ANDA Products to be used—and in
clinical practice will be used—by patients who “do[] not
receive concurrent lipid altering therapy” as required
by certain claims of the Asserted Patents. (ECF No.
366 at 409:7-415:11 (discussing the monotherapy limitation of the ’728 patent).)
The Court therefore finds that the labels of Defendants’ proposed ANDA Products encourage, recommend, promote, or suggest that clinicians prescribe
those products in a way that infringes all of the Asserted Claims.
Defendants’ arguments to the contrary are unavailing. First, as Defendants continue to argue that their
proposed ANDA Products’ substantial noninfringing
uses should change the Court’s analysis in various ways
(ECF No. 378 at 12-13), the Court reiterates that “contributory infringement can turn on whether there are
substantial noninfringing uses, while inducement does
not.” (ECF No. 278 at 8.) See also Sanofi v. Watson
Labs. Inc., 875 F.3d 636, 646 (Fed. Cir. 2017) (“[T]here
is no legal or logical basis for the suggested limitation
on inducement.”). Second, and relatedly, Defendants
argue that induced infringement cannot be inferred un-

72a
der these circumstances—that inducement cannot be
found without specific instructions in the label. (ECF
No. 378 at 12.) But the Court has done no such thing.
The Court is not inferring infringement without looking
at the content of the label. Rather, and as explained
above, the Court is reading primarily the Clinical Studies section of the label as trial testimony established a
doctor would read it. For that same reason, the
caselaw Defendants rely on, Grunenthal and Horizon,
is distinguishable. (ECF No. 378 at 14.) Unlike in
those cases, there is support in the text of Defendants’
proposed ANDA labels for the plausible interpretation
of those labels, supported by expert testimony, that the
Court finds encourages infringement here. Third, to
the extent the Court has not made it clear above, the
Court finds the evidence presented at Trial shows that
severe hypertriglyceridemia is a chronic condition necessitating indefinite treatment most of the time, or at
least enough of the time for the Court to properly find
inducement here. Thus, the Court rejects Defendants’
argument that they do not infringe the 12 week limitation of the Asserted Claims because severe hypertriglyceridemia is not a chronic condition. (ECF No. 378
at 8.)
In sum, the Court finds that Defendants’ labelling
will induce infringement of all Asserted Claims. However, as further explained below, the Court also finds
that All Asserted claims are invalid as obvious in light
of the prior art.
B. Obviousness
1. Legal Standards
Under 35 U.S.C. § 103, a patent is invalid as obvious “if the differences between the claimed invention

73a
and the prior art are such that the claimed invention as
a whole would have been obvious before the effective
filing date of the claimed invention to a person having
ordinary skill in the art to which the claimed invention
pertains.” Whether a patent claim is obvious is ultimately a question of law based on four underlying factual determinations: (1) “the scope and content of the
prior art”; (2) “the level of ordinary skill in the pertinent art”; (3) the “differences between the prior art and
the claims at issue”; and (4) “[s]uch secondary considerations as commercial success, long-felt but unsolved
needs, [and the] failure of others … .” Graham, 383
U.S. at 17.
“A party seeking to invalidate a patent based on
obviousness must demonstrate ‘by clear and convincing
evidence that a skilled artisan would have been motivated to combine the teachings of the prior art references to achieve the claimed invention, and that the
skilled artisan would have had a reasonable expectation
of success in doing so.’ ” Procter & Gamble Co. v. Teva
Pharm. USA, Inc., 566 F.3d 989, 994 (Fed. Cir. 2009)
(quoting Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348, 1361
(Fed. Cir. 2007)). Defendants, as the accused infringers, bear the ultimate burden of proving, by clear and
convincing evidence, that the Asserted Claims are invalid. See Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S. 91,
95 (2011). That said, where “the PTO did not have all
material facts before it, its considered judgment may
lose significant force,” and courts should “consider that
fact when determining whether an invalidity defense
has been proved by clear and convincing evidence.” Id.
at 111; see also Syntex (U.S.A.) LLC v. Apotex, Inc.,
407 F.3d 1371, 1379 (Fed. Cir. 2005) (finding reversible
error where “district court failed to appreciate that the
prosecution history of the relevant patents, while not

74a
establishing inequitable conduct, casts some doubt on
the final examiner’s conclusion that the claimed [invention] produces unexpected results sufficient to overcome a prima facie case of obviousness.”).
a) Motivation to Combine
Federal Circuit “case law does not require that a
particular combination must be the preferred, or the
most desirable, combination described in the prior art
in order to provide motivation for the current invention.” In re Fulton, 391 F.3d 1195, 1200 (Fed. Cir. 2004)
(internal quotation omitted). “The question is whether
there is something in the prior art as a whole to suggest
the desirability, and thus the obviousness, of making
the combination, not whether there is something in the
prior art as a whole to suggest that the combination is
the most desirable combination available.” Id. (citation
omitted). “[T]here is no requirement that the prior art
contain an express suggestion to combine known elements to achieve the claimed invention.” Motorola,
Inc. v. Interdigital Tech. Corp., 121 F.3d 1461, 1472
(Fed. Cir. 1997).
b) Reasonable Expectation of Success
For the reasonable expectation of success component, although the definition is “somewhat vague,
[Federal Circuit] case law makes clear that it does not
require a certainty of success.” Medichem, SA v. Rolabo, SL, 437 F.3d 1157, 1165 (Fed. Cir. 2006). “Conclusive proof of efficacy is not necessary to show obviousness. All that is required is a reasonable expectation of
success.” Hoffmann-La Roche Inc. v. Apotex Inc., 748
F.3d 1326, 1331 (Fed. Cir. 2014) (citation omitted). Difficulties in receiving FDA approval “are not particularly probative with respect to obviousness” because

75a
“[t]here is no requirement that one of ordinary skill
have a reasonable expectation of success in developing”
the FDA approved drug. Allergan, Inc. v. Sandoz Inc.,
726 F.3d 1286, 1292 (Fed. Cir. 2013). Rather, “the person of ordinary skill need only have a reasonable expectation of success of developing the claimed invention.”
Id.
c) Secondary Considerations
Part of the obviousness inquiry also considers
whether objective indicia of nonobviousness support
the Asserted Claims. “Such secondary considerations
as commercial success, long felt but unsolved needs,
failure of others, etc., might be utilized to give light to
the circumstances surrounding the origin of the subject
matter sought to be patented.” Graham, 383 U.S. at
17-18; see also In re Rouffet, 149 F.3d 1350, 1355 (Fed.
Cir. 1998) (explaining that objective evidence of nonobviousness may include copying, long felt but unsolved
need, failure of others, commercial success, unexpected
results created by the claimed invention, unexpected
properties of the claimed invention, licenses showing
industry respect for the invention, and skepticism of
skilled artisans). “Secondary considerations help inoculate the obviousness analysis against hindsight.” ZUP,
LLC v. Nash Mfg., Inc., 896 F.3d 1365, 1373 (Fed. Cir.
2018) (quotation omitted). However, “a strong showing
of obviousness may stand even in the face of considerable evidence of secondary considerations.” Id. at 1374
(quotation omitted).
2. Discussion
The Court first discusses Defendants’ prima facie
obviousness case, which the Court finds Defendants
supported with clear and convincing evidence of obvi-

76a
ousness at Trial, and then discusses each of Plaintiffs’
proffered objective indicia of nonobviousness. The
Court will go on to explain why the Court does not find
that Plaintiffs’ proffered evidence of secondary considerations saves the Asserted Claims.
a) Prima Facie Obviousness
As an initial matter, the Court is persuaded that
Defendants presented clear and convincing evidence at
Trial that all Asserted Claims are invalid as obvious.
The heart of Defendants’ persuasive obviousness argument is that the Lovaza PDR covers many of the limitations of the Asserted Claims, and making the obvious
substitution of only EPA instead of a mixture of EPA
and DHA renders most limitations of the Asserted
Claims obvious. The result of this obvious substitution,
obtained by combining the Lovaza PDR and Mori, is
the method recited in all Asserted Claims.
Although Plaintiffs dispute that the claimed method was obvious, they concede a number of Defendants’
key premises. For instance, there is no dispute that the
only difference between the method in the Lovaza PDR
and the method in the asserted claims is that Lovaza
contained a mixture of EPA and DHA, instead of purified EPA. (ECF No. 367 at 762:6-14; see also ECF No.
371 at 1821:5-1823:1.) Nor is there any dispute that the
increases in LDL-C caused by Lovaza were known, and
that “a skilled artisan would have been motivated to
avoid LDL-C increases when treating patients with severe hypertriglyceridemia.” (ECF No. 371 at 1822:811.) Moreover, while “many patients who took Lovaza
were also given a statin to address the LDL-C increases,” Plaintiffs’ expert Dr. Toth agreed that since “those
patients would have to take two pills, the Lovaza and a
statin,” “a skilled artisan would have been motivated to

77a
develop a single pill that treats severe hypertriglyceridemia without LDL-C increases.” (Id. at 1822:12-21;
see also ECF No. 367 at 813:8-814:2.)
Further, the Court finds that a skilled artisan
would have wanted to know which active ingredient in
Lovaza—EPA or DHA—was responsible for the LDLC increase (if not both), and that Mori addressed this
exact issue. Indeed, Dr. Toth did not dispute that “a
skilled artisan seeing that there’s DHA and EPA in
Lovaza, and seeing a side effect, would at least consider
whether the side effect could be associated with only
DHA or only EPA.” (ECF No. 371 at 1787:6-10.) Nor
did he dispute that “Mori found that the increase of
LDL-C with DHA was statistically significant and the
increase with EPA was not.” (Id. at 1788:18-25.) While
Dr. Toth disputed other aspects of Defendants’ obviousness defense (addressed further below), the key
premises that he conceded lead directly to the motivation to combine and reasonable expectation of success
that Defendants have asserted.
In addition to the claimed method of treatment, and
as discussed above as to infringement, all but one asserted claim (claim 1 of the ’929 patent) requires certain
effects on a patient’s lipids—a minimum reduction in
triglycerides (e.g., at least about 20%); no increase in
LDL-C; or a reduction in Apo B (again, these are the
Other Health Benefits Claims). As discussed in the
findings of fact above, the prior art showed that purified EPA produced each of the claimed effects in clinical studies. In particular, Mori and Hayashi disclosed
that EPA reduced triglycerides by at least about 20%;
Mori, Hayashi, and Kurabayashi disclosed that EPA
did not increase LDL-C; and Kurabayashi disclosed
that EPA reduced Apo B.

78a
One asserted claim (claim 16 of the ’728 patent) further requires that the EPA product used to treat the
patient contains no more than 0.6% of any other fatty
acid. There is no dispute that this level of purity was
disclosed and rendered obvious at least by WO ’900,20
which taught a process for producing “99.9% EPA”
with “less than 0.1% of DHA.” (Ex. 1525 at 17.)
Critically, in view of the claim language, obviousness is proven as long as there was a reasonable expectation that 4 g/day of 96% purified EPA would achieve
the claimed effects (i.e., not cause an LDL-C increase)
in patients with triglycerides of exactly 500 mg/dL. “It
is a long-established rule that claims which are broad
enough to read on obvious subject matter are unpatentable even though they also read on nonobvious
subject matter.” In re Cuozzo Speed Techs., LLC, 793
F.3d 1268, 1281 (Fed. Cir. 2015) (quotation omitted).
Thus, to prove obviousness, Defendants do not need to
prove that a skilled artisan would have reasonably expected success in achieving the claimed effects in patients with triglycerides above 500 mg/dL, much less
substantially above that level.
Also, this case is unlike many other obviousness
cases because, when the Patent Office issued the patents-in-suit, it maintained its finding from earlier rejections that the prior art rendered all of the claims
prima facie obvious. (Ex. 1521 at 1822-35, see also id. at
1830-31.) As the examiner explained, “it was concluded
that it will be obvious to treat patients having triglycerides above 500 mg/dL with 96% pure ethyl-EPA.”
(Id. at 1830.) The examiner thus agreed with Defendants’ view that the prior art would have motivated a
20

The parties stipulated to the fact that this reference is prior
art. (ECF No. 324 at 9.)

79a
skilled artisan to practice the asserted claims with a
reasonable expectation of success (issuing the patents
based solely on secondary considerations). (ECF No.
371 at 1804:22-1806:1; see also ECF No. 331 at 152 (noting in Plaintiffs’ proposed findings of fact that “the Examiner concluded that it would be prima facie obvious
to treat patients having TG above 500 mg/dl with 96%
pure ethyl-EPA”).)
The Court therefore finds that Defendants established by clear and convincing evidence at Trial that all
Asserted Claims are prima facie obvious. Plaintiffs arguments to the contrary are unavailing. Many of Plaintiffs’ arguments depend on the premise that POSAs as
of March 2008 would not have expected that using a
composition of purified EPA would not increase LCL-C
levels. (ECF No. 379 at 22-23.) But this premise is not
supported by the evidence. To explain, Plaintiffs primarily point to testimony from Dr. Toth to support this
premise. But there are at least three issues with Dr.
Toth’s testimony. First, he agreed under questioning
that, as of “March 2008 […] the prior art reflect[ed]
that all these treatments increased LDL-C in patients
with very high triglycerides.” (ECF No. 370 at 1574:11575:1.) But that cannot be correct, because Mori
taught that EPA did not increase LDL-C levels like
DHA did. (Ex. 1538 at 3.) Second, Dr. Toth testified
that von Schacky contributed to his view that all TGlowering therapies increase LDL-C levels. (ECF No.
370 at 1697:9-1703:7.) But as Defendants point out
(ECF No. 378 at 26), von Schacky did not correctly
summarize Mori. Specifically, von Schacky, citing Mori,
wrote, “In more recent comparative studies, no effects
of either EPA or DHA were seen on total cholesterol,
HDL, or LDL levels.” (Ex. 1605 at 5.) But even Dr.
Toth agreed on cross-examination that is not what Mori

80a
said. (ECF No. 371 at 1847:8-17.) Mori actually found
that LDL-C increased with DHA, but not EPA. (Ex.
1538 at 3.) Third, part of Dr. Toth’s opinion, and Plaintiffs’ argument, is based on the Carlson reference from
1977. (ECF No. 377 at 43-44 (citing ECF No. 370 at
1577:22-25 and Ex. 1026.).) The Court is unpersuaded
that an article from 1977 reflects the knowledge of a
POSA in 2008. Thus, Plaintiffs’ argument, in part
based on Dr. Toth’s testimony—that a POSA would
have thought that both DHA and EPA would cause an
increase in LDL-C in March 2008—lacks evidentiary
support. The Court accordingly rejects this argument.
Moreover, Plaintiffs’ arguments also depend on another factual premise that lacks evidentiary support—
that patients with TG levels above 500 mg/dL respond
differently to TG-lowering therapy than patients with
TG levels below 500 mg/dL. (ECF No. 379 at 2324.)
But even if Mori and other studies on patients with
lower TGs did not provide “conclusive proof” of EPA’s
effects, they were enough to form “a reasonable expectation of success.” Hoffmann-La Roche, 748 F.3d at
1331. Indeed, Dr. Toth conceded that POSAs could rely
on data in patients with triglycerides below 500 mg/dL
to make reasonable predictions about how patients
above that threshold would respond. As he admitted,
“a skilled artisan would know that a drug that reduces
triglycerides in a patient at 400, is very likely to also
reduce triglycerides in a patient at 600.” (ECF No. 371
at 1860:8-11.) Thus, the Court finds that a POSA
“would have reasonably expected purified EPA to reduce triglyceride levels above 500,” even without data
confirming that result. (Id. at 1860:12-15.)
There was no reason to expect differently for LDLC. Dr. Toth cited no evidence that the 500 mg/dL
threshold reflects any difference in how patients me-

81a
tabolize drugs, or any relationship between that specific threshold and LDL-C. As he admitted, “[t]he 500
threshold was not set because above 500 you are expected to have a greater increase in LDL-C in response
to a drug.” (Id. at 1860:3-7.) Instead, all experts
agreed that the threshold simply represents a marker
for the risk of pancreatitis, which has nothing to do
with LDL-C levels. (ECF No. 371 at 1859:3-13; see also
Bays Dep. Tr. at 143:9-11, 143:13-19.) In Dr. Heinecke’s
words, there is no “magical mechanistic difference” between having triglycerides of 400, 500, or 600 mg/dL.
(ECF No. 367 at 796:5-20.) A skilled artisan would understand that, regardless of a patient’s baseline triglycerides, “the qualitative effects of medications … tend to
be the same.” (Id. at 797:16-18.)
Finally, Plaintiffs try to discredit Mori by pointing
to von Schacky. (ECF No. 379 at 24.) But the Court
credits Mori over von Schacky, because, as described
above, von Schacky incorrectly summarized Mori, and
is therefore not credible. In sum, having found that Defendants met their clear and convincing burden to
prove their prima facie obviousness case at trial, the
Court turns to consideration of Plaintiffs’ proffered
secondary considerations.
b) Secondary Considerations
“[E]vidence rising out of the so-called ‘secondary
considerations’ must always when present be considered en route to a determination of obviousness.”
Stratoflex, Inc. v. Aeroquip Corp., 713 F.2d 1530, 1538
(Fed. Cir. 1983). The Court therefore addresses each of
the secondary considerations proffered by Plaintiffs.
Plaintiffs specifically point to unexpected benefits, satisfaction of long-felt but unmet need, skepticism, praise,
and commercial success. (ECF No. 377 at 10.) But be-

82a
fore the Court addresses each of these secondary considerations, the Court addresses Defendants’ challenge
to the nexus between the REDUCE-IT clinical trial
results and the Asserted Claims—which the Court
finds persuasive.
i.

REDUCE-IT

Plaintiffs rely on the results of the REDUCE-IT
clinical trial to support several of their secondary considerations arguments. (ECF No. 379 at 35-38.) However, Defendants counter that, as a matter of law, the
Court should not consider the results of the REDUCEIT study in analyzing Plaintiffs’ proffered secondary
considerations because REDUCE-IT lacks a sufficient
nexus to the Asserted Claims. (ECF No. 378 at 30-32.)
The Court agrees with Defendants.
Regardless of whether a presumption of nexus applies here,21 there is no nexus between REDUCE-IT
and the Asserted Claims. “It is the established rule
that objective evidence of non-obviousness must be
commensurate in scope with the claims which the evidence is offered to support.” Allergan, 754 F.3d at 965
(quotation omitted; reversing judgment of nonobviousness). “Where the offered secondary consideration actually results from something other than what is both
claimed and novel in the claim, there is no nexus to the
merits of the claimed invention.” In re Huai-Hung Kao,
639 F.3d 1057, 1068 (Fed. Cir. 2011) (emphasis omitted).
For multiple reasons, Plaintiffs’ evidence regarding
REDUCE-IT does not satisfy these requirements.
21

The parties dispute whether a presumption of nexus applies (ECF Nos. 378 at 30-31, 379 at 35), but the Court need not—
and does not—resolve that dispute because the Court finds, as explained infra, that there is an insufficient nexus between REDUCE-IT and the Asserted Claims.

83a
First, REDUCE-IT lacks a nexus to the claimed
use of Vascepa without a statin. As Dr. Toth admitted,
“none [of] the asserted claims require a statin.” (ECF
No. 371 at 1896:23-24.) In fact, three claims expressly
require treating a patient “who does not receive concurrent lipid altering therapy,” and thus preclude using
a statin. (Ex. 1500 (’728 patent claims 1 and 16); Ex.
1502 (’715 patent claim 14).) In contrast, “all the patients in REDUCE-IT were taking statins”—“100 percent.” (ECF No. 371 at 1896:15-19; see also Ex. 1641 at
2.) In fact, there is no dispute that a statin must be
administered to reduce cardiovascular risk with Vascepa. As Dr. Toth testified, “it would have been unethical
to have just a Vascepa monotherapy arm [in REDUCE-IT]. The FDA would never allow it because
statin therapy is the standard of care.” (ECF No. 371
at 1897:5-10.) This is reflected in the REDUCE-IT indication, which makes clear that Vascepa reduces cardiovascular risk only “as an adjunct to maximally tolerated statin therapy.” (Ex. 2248 at 2.)
The REDUCE-IT results are therefore not “commensurate in scope with the claims.” Allergan, 754
F.3d at 965. For the three claims that exclude statins,
the benefits of REDUCE-IT are entirely outside the
scope of the claims. But even for the claims that are
silent on statin use, there is no dispute that Vascepa
can be, and often is, used without a statin in accordance
with the claimed method. As Dr. Toth agreed, only “25
percent of the patients in MARINE were taking
statins.” (ECF No. 371 at 1896:20-22.) At most, therefore, the REDUCE-IT results could only be relevant to
that subset of patients. But the Asserted Claims are
much broader—they include the 75% of patients in
MARINE who took Vascepa without a statin. Because
the REDUCE-IT results are “not commensurate with

84a
the full scope of the patent’s claims,” they “lack[] a nexus with the scope of the [asserted] patent[s’] claimed
invention.” Allergan, 754 F.3d at 965.
Put differently, the benefits in REDUCE-IT “actually result[ed] from something other than” the claimed
invention, which at least allows using Vascepa without
a statin. In re Huai-Hung Kao, 639 F.3d at 1068. Instead, the benefits resulted from a different invention—one claimed in Plaintiffs’ unasserted patents—
which requires using a statin. (Ex. 2001 at 1, 52-53.)
REDUCE-IT thus lacks a nexus to the Asserted
Claims. (ECF No. 367 at 821:2-18.)
Second, REDUCE-IT lacks a nexus to the claimed
use of EPA to reduce triglycerides. As Dr. Toth conceded, “none of the patent claims at issue in this case
have a limitation with regard to reducing cardiovascular risk.” (ECF No. 371 at 1894:15-18.) Instead, all asserted claims are directed to “[a] method of reducing
triglycerides.” The benefits in REDUCE-IT, however,
were unrelated to reducing triglycerides. According to
the REDUCE-IT publication (the Bhatt Article), “the
significantly lower risk of major adverse cardiovascular
events with icosapent ethyl than with placebo appeared
to occur irrespective of the attained triglyceride level
at 1 year (≥150 or suggest that at least some of the effect of icosapent ethyl that resulted in a lower risk of
ischemic events than that with placebo may be explained by metabolic effects other than a reduction of
triglyceride levels.” (Ex. 1641 at 10.) In other words,
the REDUCE-IT benefits “actually result[ed] from
something other than” the claimed method of reducing
triglycerides, which precludes any finding of nexus. In
re Huai-Hung Kao, 639 F.3d at 1068. (See also ECF
Nos. 367 at 816:8-817:12, 368 at 1035:4-1037:2.) On
cross-examination, Plaintiffs argued that “the Bhatt

85a
[A]rticle doesn’t rule out TG lowering as responsible
for at least part of the CV benefit.” (ECF No. 368 at
1119:11-14.) But on the contrary, the evidence of record, including the Bhatt Article, suggests the opposite.
Thus, there is no basis to conclude that the REDUCEIT results have a nexus to the claimed method of reducing triglycerides.
Third, REDUCE-IT lacks a nexus to avoiding an
increase in LDL-C, which is a limitation of all but two
Asserted Claims, and is the purported discovery that
allegedly distinguishes the Asserted Claims from the
prior art. According to the Bhatt Article, the REDUCE-IT investigators “found no substantial difference in the benefit of icosapent ethyl as compared with
placebo with respect to the primary end point according to whether the patients who received placebo had
an increase in LDL cholesterol levels at 1 year or had
no change or a decrease in LDL cholesterol levels.”
(Ex. 1641 at 7.) Thus, the REDUCE-IT benefits “actually result[ed] from something other than” the claimed
method of avoiding an increase in LDL-C, as required
by eight of the asserted claims. (ECF No. 367 at
820:13-821:1. See also In re Huai-Hung Kao, 639 F.3d
at 1068.
Fourth, the REDUCE-IT results are not commensurate in scope with the Asserted Claims because the
results were limited to patients with multiple cardiovascular risk factors that the asserted claims do not require. As explained in the Bhatt Article, REDUCE-IT
was limited to patients who “were 45 years of age or
older and had established cardiovascular disease or
were 50 years of age or older and had diabetes mellitus
and at least one additional risk factor.” (Ex. 1641 at 2.)
Likewise, the REDUCE-IT indication is limited to patients with “established cardiovascular disease or dia-

86a
betes mellitus and 2 or more additional risk factors for
cardiovascular disease.” (Ex. 2248 at 2.) By contrast,
the Asserted Claims do not contain any of these limitations. As Dr. Toth admitted, “aside from severe high
triglycerides, there’s no other risk factor[] required by
the patents related to cardiovascular issues.” (ECF
No. 371 at 1894:22-25.) For example, none of the Asserted Claims are limited to patients with diabetes.
(ECF Nos. 367 at 826:10-12, 368 at 1093:21-22.) Moreover, there is no dispute that many patients with severe
hypertriglyceridemia do not have risk factors such as
diabetes. For example, in MARINE, only 28% of patients were diabetic. (Ex. 1741 at 2; see also ECF No.
367 at 825:22-826:9.) The Asserted Claims cover the
treatment of the remaining patients who were not diabetic, as well as patients who more generally do not
have two or more cardiovascular risk factors. Because
the REDUCE-IT results are limited to patients with
such risk factors, they are “not commensurate with the
full scope of the patent’s claims.” Allergan, 754 F.3d at
965.
Fifth, REDUCE-IT lacks a nexus to the limitation
in all Asserted Claims that patients must have TG levels of at least 500 mg/dL. As Dr. Toth admitted, “REDUCE-IT focused on patients with triglycerides below
500.” (ECF No. 371 at 1894:12-14.) According to the
Bhatt Article, “[e]ligible patients had a fasting triglyceride level of 150 to 499 mg per deciliter,” which means
that patients with triglyceride of at least 500 mg/dL
were not eligible to participate. (Ex. 1641 at 2.) The
benefits in REDUCE-IT thus “actually result[ed] from
something other than” the claimed invention, which is
limited to treating patients with triglycerides of at
least 500 mg/dL, so “there is no nexus[.]” (ECF No.
367 at 818:12-819:16.) See also In re Huai-Hung Kao,

87a
639 F.3d at 1068. Indeed, because REDUCE-IT focused on patients with triglycerides below 500 mg/dL,
conducting REDUCE-IT did not even infringe the Asserted Claims. Moreover, in analogous circumstances,
the Federal Circuit has held that evidence regarding
products that are not covered by the asserted claims
cannot be relevant to secondary considerations. The
same principle applies to the method claims here—
because the Asserted Claims do not cover the REDUCE-IT study, evidence regarding REDUCE-IT is
irrelevant. See Ashland Oil, Inc. v. Delta Resins & Refractories, Inc., 776 F.2d 281, 306 n.42 (Fed. Cir. 1985)
(stating if “products were not covered by the [asserted]
patents, [] then the secondary considerations [based on
those products] would not have had any relevance to
the obviousness/nonobviousness determination”); Amazon.com, Inc. v. Barnesandnoble.com, Inc., 239 F.3d
1343, 1366 (Fed. Cir. 2001) (holding that secondary considerations based on “copying Amazon’s ‘1-Click®’ feature is legally irrelevant unless the ‘1-Click®’ feature is
shown to be an embodiment of the claims”).
Plaintiffs argue that some patients in REDUCE-IT
developed higher triglyceride levels after they became
eligible for the study, and thus the study did include a
handful of patients with triglycerides of at least 500
mg/dL. (ECF No. 379 at 35 n.10.) But Plaintiffs’ argument contradicts their position that Defendants’ priorart references are not relevant unless all patients in the
study had triglycerides of at least 500 mg/dL. Plaintiffs
cannot have it both ways. If studies in which no patients, or only a handful of patients, had triglycerides of
at least 500 mg/dL are irrelevant, then so is REDUCEIT.
In sum, for multiple independent reasons, the REDUCE-IT results are not commensurate in scope with,

88a
and did not actually result from practicing, any of the
Asserted Claims. Thus, there is an insufficient nexus
between REDUCE-IT and the Asserted Claims. As a
result, evidence concerning REDUCE-IT is not relevant to determining whether the Asserted Claims are
invalid as obvious.
ii. Unexpected Benefits
Plaintiffs also argue that the positive lipid effects
recited in the Other Health Benefit claims are unexpected benefits that constitute another secondary consideration weighing in favor of nonobviousness. (ECF
No. 377 at 252-257.) Defendants counter that these
benefits were not unexpected because they were predicted by the relevant prior art. (ECF No. 378 at 29.)
The Court agrees with Defendants.
As explained above as to Defendants’ prima facie
obviousness case, Mori found that EPA did not raise
LDL-C levels, and Kurabayashi suggested that EPA
reduced Apo B levels. (ECF No. 373 at 76-80, 246-47.)
Further, while the Patent Office found that a decrease
in Apo B was an unexpected benefit constituting a valid
secondary consideration, the Patent Office’s examiner
did not consider Kurabayashi. (Id. at 246-47.) Where
“the PTO did not have all material facts before it, its
considered judgment may lose significant force[.]” See
i4i, 564 U.S. at 95. Thus, the Court finds that the unexpected benefits secondary consideration does not weigh
in favor of finding the Asserted Claims nonobvious.
///
iii. Satisfaction of Long-Felt Need
Plaintiffs also argue that the Asserted Claims are
not obvious because Vascepa satisfied long-felt needs—

89a
“as it is the first approved treatment that reduces TGs
without raising LDL-C in patients with severe hypertriglyceridemia, and the first treatment for reducing
TGs in severely hypertriglyceridemic patients that reduces cardiovascular risk on top of statin.” (ECF No.
377 at 261.) Defendants counter that there was no longfelt need to reduce TGs without raising LDL-C because
a patient could also be put on a statin to avoid the LDLC increase. (ECF No. 378 at 29-30.) The Court agrees
with Plaintiffs.
The Court is persuaded that there was a long-felt
need for a drug like Vascepa that could reduce TG levels without raising LDL-C levels, primarily because
both sides’ experts testified that patients are more likely to comply with a prescribed treatment regime when
they only have to take one pill, rather than two—and
the Court relied on this evidence in finding a POSA
would be motivated to combine the Lovaza PDR with
the finding from Mori that EPA did not raise LDL-C
levels.22 (See supra Section IV.B.2(a).) It is better to
take one pill than two if taking that one pill will give
you all the same benefit. Moreover, there is no real
dispute that some patients may not be able to tolerate
statins. (ECF No. 367 at 660-61.) Thus, the Asserted
Claims represent an improvement—albeit a prima facie
obvious one—over the prior art. And this secondary
consideration therefore weighs slightly in favor of finding the Asserted Claims nonobvious.

22

However, the Court notes that the Court does not credit
the REDUCE-IT Indication as weighing in Plaintiffs’ favor as to
this factor because the Court has already found REDUCE-IT
lacks the required nexus to the Asserted Claims supra in Section
IV.B.2(b).i.

90a
iv. Skepticism
Skepticism about an invention is evidence that an
invention was not obvious. See In re Rouffet, 149 F.3d
1350, 1355 (Fed. Cir. 1998). Plaintiffs argue that this
secondary consideration weighs in their favor because
experts were skeptical that Vascepa could lower TG
levels without also raising LDL-C levels.23 (ECF No.
377 at 268.) Defendants counter that Plaintiffs did not
present any expert testimony at Trial regarding skepticism, and only cite to the opinions of two experts retained by Plaintiffs to serve on an expert panel during
Vascepa’s development—and their opinions are irrelevant because Plaintiffs did not present any evidence
these experts were aware of the prior art Defendants
relied on in this case. (ECF No. 378 at 30.) The Court
agrees with Defendants.
Plaintiffs’ proffered evidence of skepticism is not
inconsistent with Defendants’ argument. Specifically,
Plaintiffs point to notes taken by Ian Osterloh at Plaintiffs’ expert meeting earlier on in the development of
Vascepa and related deposition testimony, and specifically point to this note: “LDL-C is likely to go up as it
does with virtually all tg-lowering therapies in this
group of patients.” (ECF No. 377 at 268 (citing Ex. 754
at 2).) But of course, the phrase ‘virtually all’ does not
mean ‘all,’ and the Court agrees with Defendants that
this view does not appear to account for Mori. And a
skeptical statement is entitled to less weight if, as appears to be the case here, the person who made the
23

Plaintiffs also make skepticism arguments based on the
REDUCE-IT Indication (ECF No. 377 at 268-69), but the Court
does not consider those arguments because REDUCE-IT lacks the
required nexus to the Asserted Claims, as explained supra in Section IV.B.2(b).i.

91a
statement was unaware of relevant prior art that would
likely have made them less skeptical. See PharmaStem
Therapeutics, Inc. v. ViaCell, Inc., 491 F.3d 1342, 1365
(Fed. Cir. 2007) (discounting testimony expressing surprise where “there was no indication that either [the
declarant] or members of his research group were previously aware of the prior art references that laid the
groundwork for the inventors’ experiments.”). In sum,
the Court finds that the skepticism secondary consideration does not weigh in favor of finding the Asserted
Claims nonobvious.
v.

Praise

The Court found, as a factual matter supra in Section III.G.4(c), that Plaintiffs’ proffered evidence of
praise for Vascepa was more qualified and equivocal
than Plaintiffs argued, and thus finds that the praise
secondary consideration does not weigh in favor of finding the Asserted Claims nonobvious.
vi. Commercial Success
But the Court also found, as a factual matter supra
in Section III.G.4(b), that Vascepa is a commercial success. This secondary consideration therefore weighs in
favor of finding the Asserted Claims nonobvious.
vii. Weighing These Secondary Considerations
The Court thus finds that the satisfaction of longfelt need and commercial success secondary considerations weigh in Plaintiffs’ favor, and the remaining secondary considerations weigh in Defendants’ favor.
More specifically, the Court finds that Vascepa is a
commercial success even though it has not yet turned a
profit, and that there was long felt need for a single pill

92a
that reduced TG levels without increasing LDL-C levels. However, these secondary considerations are outweighed by the fact that the Court found Plaintiffs’
other proffered secondary considerations favor Defendants. Thus, at best, Plaintiffs have presented weak
evidence of the existence of secondary considerations,
which do not overcome the Court’s finding that all Asserted Claims are prima facie obvious. See, e.g., ZUP,
896 F.3d at 1373 (holding that “a strong showing of obviousness may stand even in the face of considerable
evidence of secondary considerations”).
For the reasons discussed above, in view of all four
Graham factors (including alleged secondary considerations), Defendants have proven by clear and convincing
evidence that all Asserted Claims are invalid as obvious
under 35 U.S.C. § 103.
C. Remedies
Plaintiffs seek a permanent injunction that Defendants be prohibited from marketing their proposed ANDA Products until Plaintiffs’ Asserted Patents expire,
and that their ANDA applications similarly should not
be made effective until Plaintiffs Asserted Patents expire. (ECF No. 377 at 300-01.) However, Plaintiffs are
not entitled to these remedies because, while the Court
found that Defendants’ proposed ANDA Products will
induce infringement of the Asserted Claims, all of the
Asserted Claims are invalid as obvious under 35 U.S.C.
§ 103.
V. CONCLUSION
The Court notes that the parties made arguments
and cited to cases not discussed above. The Court has reviewed these arguments and cases, and has determined
they do not materially affect the outcome of this case.

93a
The Court finds that Defendants’ proposed ANDA
Products will induce infringement of the Asserted
Claims, but all the Asserted Claims are invalid as obvious under 35 U.S.C. § 103. Thus, the Court finds in favor of Defendants on Plaintiff’s remaining infringement
claim, and in their favor on their counterclaims asserting the invalidity of the Asserted Claims under 35
U.S.C. § 103.
The Clerk of Court is ordered to enter judgment in
favor of Defendants on Plaintiffs’ claim and on Defendants’ counterclaims, and close this case.
DATED THIS 30th day of March 2020.
[handwritten signature]
MIRANDA M. DU
CHIEF UNITED STATES DISTRICT JUDGE

95a
APPENDIX C
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1723, 2020-1901
AMARIN PHARMA, INC., AMARIN
PHARMACEUTICALS IRELAND LIMITED,
Plaintiffs-Appellants,
v.
HIKMA PHARMACEUTICALS USA INC., HIKMA
PHARMACEUTICALS INTERNATIONAL LIMITED,
DR. REDDY’S LABORATORIES, INC., DR. REDDY’S
LABORATORIES, LTD.,
Defendants-Appellees.
Appeals from the United States District Court for the
District of Nevada in No. 2:16-cv-02525-MMD-NJK,
Judge Miranda M. Du.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.*
PER CURIAM.
* Circuit Judge O’Malley did not participate.

96a
ORDER
Appellants Amarin Pharma, Inc. and Amarin
Pharmaceuticals Ireland Limited filed a combined petition for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November
12, 2020.

FOR THE COURT
November 4, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

